<html>
<title> - IMPROVING ROADWAY SAFETY: ASSESSING THE EFFECTIVENESS OF THE NATIONAL HIGHWAY AND TRAFFIC SAFETY ADMINISTRATION'S HIGHWAY TRAFFIC SAFETY PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       IMPROVING ROADWAY SAFETY:
                      ASSESSING THE EFFECTIVENESS
                      OF THE NATIONAL HIGHWAY AND
                    TRAFFIC SAFETY ADMINISTRATION'S
                    HIGHWAY TRAFFIC SAFETY PROGRAMS

=======================================================================

                               (110-153)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
43-655 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A. ARCURI, New York          JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY McNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
ZACHARY T. SPACE, Ohio               CANDICE S. MILLER, Michigan
BRUCE L. BRALEY, Iowa, Vice Chair    THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
ALBIO SIRES, New Jersey              ROBERT E. LATTA, Ohio
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Gillan, Jacqueline S., Vice President, Advocates For Highway & 
  Auto Safety....................................................    29
Ingrassia, Jill, Managing Director, Government Relations & 
  Traffic Safety Advocacy, AAA...................................    29
James, Patrick, American Center for Van and Tire Safety..........    29
Letourneau, Hon. Robert, New Hampshire State Senator, Motorcycle 
  Foundation, Concord, New Hampshire.............................    29
Mooney, Laura Dean, President, Mothers Against Drunk Driving.....    29
Murphy, Christopher J., Director, California Office of Traffic 
  Safety and Chairman Governors Highway Safety Association.......     4
Ports, Jim, Deputy Administrator, National Highway Traffic Safety 
  Administration.................................................     4
Siggerud, Katherine A., Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    45
Braley, Hon. Bruce L., of Iowa...................................    46
Mitchell, Hon. Harry E., of Arizona..............................    48
Oberstar, Hon. James L., of Minnesota............................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Gillan, Jacqueline S.............................................    53
Ingrassia, Jill..................................................    67
James, Patrick...................................................    73
Letourneau, Hon. Robert..........................................   104
Mooney, Laura Dean...............................................   116
Murphy, Christopher J............................................   129
Ports, Jr., James F..............................................   137
Siggerud, Katherine..............................................   143

                       SUBMISSIONS FOR THE RECORD

Mooney, Laura Dean, President, Mothers Against Drunk Driving:

  ``Health Effects of Alcohol on Children and Adolescents,'' 
    Ronald M. Davis, M.D., President, American Medical 
    Association..................................................   123
  Remarks of Mark V. Rosenker, Chairman, National Transportation 
    Safety Board, for the ``Support 21'' press conference........   127

[GRAPHIC] [TIFF OMITTED] T3655.001

[GRAPHIC] [TIFF OMITTED] T3655.002

[GRAPHIC] [TIFF OMITTED] T3655.003

[GRAPHIC] [TIFF OMITTED] T3655.004

[GRAPHIC] [TIFF OMITTED] T3655.005

[GRAPHIC] [TIFF OMITTED] T3655.006

[GRAPHIC] [TIFF OMITTED] T3655.007

[GRAPHIC] [TIFF OMITTED] T3655.008

[GRAPHIC] [TIFF OMITTED] T3655.009



  HEARING ON IMPROVING ROADWAY SAFETY: ASSESSING THE EFFECTIVENESS OF 
                NHTSA'S HIGHWAY TRAFFIC SAFETY PROGRAMS

                              ----------                              


                        Wednesday, July 16, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [Chairman of the Subcommittee] presiding.
    Mrs. Napolitano. [Presiding] Good morning, ladies and 
gentlemen. The hearing for the Committee on Transportation and 
Infrastructure Subcommittee on Highways and Transit is coming 
to order.
    I personally want to thank Chairman DeFazio for allowing me 
to chair until he is able to come back to this hearing.
    And thank you, Mr. Duncan, for coming with us.
    Today's hearing is regarding the effectiveness of the 
National Highway Traffic Safeway Administration's Highway 
Safety Programs. These programs improve roadway safety by 
increasing occupant protection measures, including seat belt 
usage; reducing drunk driving--and hopefully also drugged 
driving--distracted driving, which would include cell phones; 
and, of course reckless driving and speeding.
    Major costs of highway accidents in my district are due to 
reckless driving in and around highway and railroad grade 
crossings, as well as speed. As freight and commuter railroad 
services rapidly increase, it is imperative that we address 
grade crossing safety and work with our railroads to improve 
those particular areas at the grade crossings, whether through 
grade separations or improved quad gates or any other area that 
we can effectively put into use.
    Communities must be assisted to implement effective 
countermeasures--like I said, the quad gates, median barriers 
approaching these crossings, and grade separation projects--
which we hope the railroads will continue to increase their 
help in providing those. The effectiveness of railroad gates is 
a major concern in my district and allows drivers to maneuver 
around malfunctioning gates, especially if they are in a hurry 
or during a rainstorm or they are keeping appointments, being 
that 160 trains travel through my district every day over 54 
grade crossings in a heavily populated area. Add to that other 
issues, whether it is drunk driving, reckless speeding, any 
other safety factor, this is going to be a real problem, 
especially since the frequency of train traffic is expected to 
increase, double by 2020.
    There are concerns about the DUI, DWI--whatever you want to 
name it--being used to implement certain things such as 
immigration checkpoints; concern that the local governments are 
using Federal and State grants intended for nighttime DUI or 
DWI, checkpoints to implement these daytime immigration 
checkpoints. And let me tell you, they are using it as an 
income increase to their general budgets. Some of the ones that 
I know--because I know several of them--are the tow truck 
operators. Because when you implement a fee plus a daily 
impound of $30 a day or $45--depends on who you talk to--for 30 
days, that is a hefty amount of money. We must ensure that 
these provisions that allow these checkpoints to happen or to 
reduce the number of safety factors that affect our public's 
safety.
    I don't see any statistics from anybody telling us that 
doing these other measures are decreasing the number of 
accidents or fatalities. The checkpoints at some of our area's 
adjoining counties have been including Immigration officers. 
Well, then we should include parole officers to be able to 
ensure that some of these folks that are possibly driving while 
on parole or violation of parole, or whether they are drugged, 
or whether they are otherwise impaired are taken off the 
highways. Those are things that I have sort of looked at as I 
was going through the testimony.
    The National Highway Traffic Safety Administration 
disperses grants to our States and local governments to set up 
these checkpoints and increase driving safety, not immigration 
enforcement; and that is taking away from the amount of time 
the funding to be able to effectively put these officers 
somewhere where they can be more effective in providing that 
safety to our public.
    I welcome our witnesses today and look forward to hearing 
the testimony and any recommendations for improving highway 
safety. I have read most of the testimony with great pleasure 
because California, as you well know, is a heavily trafficked 
State and increasing by every year. We must also work with our 
Federal counterparts to be able to ensure that we have every 
tool available to decrease fatalities, and I agree, to zero.
    With that, I turn to Mr. Duncan for a statement. Thank you, 
sir.
    Mr. Duncan. Well, thank you very much, Madam Chairwoman. 
And I thank Chairman DeFazio for calling this hearing to assess 
our traffic safety programs. I would also like to thank all of 
our witnesses for being here. In particular, I would like to 
thank one of my constituents, Patrick James, for traveling from 
Knoxville, Tennessee to testify before us here today.
    Mr. James lost his daughter, Alexis ``Lexie'' James, in a 
15-passenger van accident last July. Since this tragedy, Mr. 
James has worked tirelessly to raise public awareness and to 
improve the safe operation of these vans. He is here today to 
testify about those efforts. Actually, his work led the 
Congress to pass at least a preliminary or beginning resolution 
on this subject just a couple of months ago.
    The safety of our Nation's highways is a major concern for 
the Transportation and Infrastructure Committee. In 2006, 
42,642 people lost their lives in motor vehicle crashes. That 
translates to an average of 117 people per day, or 1 person 
every 12 minutes. In fact, I remember a couple months after 9/
11 I was asked to be on the Oprah Winfrey Show because they had 
an inspector general of the Department of Transportation at 
that time that said our planes were becoming so dangerous we 
were going to start averaging a crash a week soon, and that 
woman was totally wrong; and they had me on there to talk about 
how safe the aviation system was, and I said at that time, 
unfortunately, we have more people killed in three or three and 
a half months on our Nation's highways than killed in all U.S. 
aviation accidents combined since the Wright Brothers' flight 
in 1903. The disparity is almost unbelievable.
    Behind the numbers, though, of these 42,000 plus people 
being killed, behind those numbers are devastated families and 
individuals. In addition to that, traffic crashes cost the 
Nation an estimated $230 billion annual. While there has been 
some progress in reducing these numbers--the 2006 number 
decreased 2 percent from 2005--traffic fatalities and injuries 
remain a major public health problem in this Country. In fact, 
I think they are the leading cause of death for people from the 
age of 2 to the age of 34, if I remember correctly.
    As we move forward on reauthorizing the highway safety 
programs, we will face the challenge of reducing or trying to 
reduce these numbers further. This challenge is, in addition, 
complicated by changes in the causes of fatal accidents, as 
well changes in the demographics of the motoring public. For 
example, we must be prepared for the graying of America. As our 
population grows in size, the average age of our citizens is 
also increasing. In 50 years, the percentage of the population 
over 65 will almost double, from about 12 percent now to about 
21 percent. This is something we are going to have to take into 
consideration.
    We need to have programs in place that will help meet the 
challenges by keeping older drivers at the wheel safely. 
Really, they are the among the safest drivers in this Country 
today, but they also have a higher percentage of fatalities 
because, when they are involved in a serious accident, there is 
more likely to be a death involved.
    Our witnesses will address the issues facing the highway 
safety programs. I look forward to hearing their testimony and 
I yield back the balance of my time.
    Mrs. Napolitano. Thank you so very much, Mr. Duncan.
    With that, we will proceed with the testimony of our 
witnesses, which include Mr. Jim Ports, Deputy Administrator of 
the National Highway Safety Traffic Administration. Welcome, 
sir.
    Ms. Katherine Siggerud, Director of Physical Infrastructure 
Issues at the Government Accountability Office. Welcome, ma'am.
    And a very hearty welcome to one of my State's great 
people, who is Christopher Murphy, Director of the California 
Office of Traffic Safety and Chairman of the Governors Highway 
Association.
    Thank you all for being here, and we will proceed with Mr. 
Ports. You may begin, sir.

TESTIMONY OF JIM PORTS, DEPUTY ADMINISTRATOR, NATIONAL HIGHWAY 
TRAFFIC SAFETY ADMINISTRATION; KATHERINE A. SIGGERUD, DIRECTOR, 
PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
OFFICE; AND CHRISTOPHER J. MURPHY, DIRECTOR, CALIFORNIA OFFICE 
    OF TRAFFIC SAFETY AND CHAIRMAN GOVERNORS HIGHWAY SAFETY 
                          ASSOCIATION

    Mr. Ports. Thank you, Madam Chairman, Ranking Member Duncan 
and members of the Subcommittee, thank you for inviting me here 
today to discuss motor vehicle safety issues. I want to express 
my appreciation for this Committee's support for highway safety 
programs. Your leadership and support have made significant 
contributions to advancing the cause of highway safety and 
improving the quality of life in communities across the Nation.
    Transportation safety is a top priority for President Bush 
and Secretary Peters. Our mission at NHTSA is very straight 
forward: to save lives and prevent injuries. Motor vehicle 
crashes continue to be the leading cause of death for Americans 
in every age 2 through 34. In 2006, more than 42,600 people 
lost their lives on U.S. roadways, and 2.6 million were injured 
in vehicle crashes.
    As Representative Duncan mentioned earlier, the associated 
financial costs are staggering, at $230 billion each year. What 
makes that situation even more distressing and frustrating is 
that many of these deaths were preventable. Over 90 percent of 
crashes are caused by human factors, such as speeding and 
alcohol impairment. We must aggressively continue to work to 
change driving behaviors. Advances in new technology, such as 
electronic stability control, will also play a major important 
role in reducing traffic fatalities in the future.
    One of the areas where new advances in technology linked to 
behavior programs shows strong promise is in reducing impaired 
driving crashes. In 2006, alcohol-impaired driving crashes 
accounted for more than 13,400 deaths, or 32 percent of all 
traffic fatalities. Impaired drivers also take a terrible toll 
on our most precious resource, our children. In 2006, 598 
children under the age of 18 were killed in crashes involving 
an alcohol-impaired driver.
    Lack of seat belt use also continues to be a major factor 
in motor vehicle crashes. Research has shown that seat belt use 
is the most effective traffic safety countermeasure available 
to prevent fatalities and injuries. Seat belts saved an 
estimated 75,000 lives between 2002 and 2006. Higher belt use 
rates translate directly into saved lives.
    One of the most challenging areas we face today is 
motorcycle safety. The number of fatalities continues to rise. 
In 2006, 4810 motorcyclists were killed, an increase of 5 
percent over the 2005 number, and a 127 percent increase since 
1997. NHTSA supports comprehensive efforts to reduce 
motorcycle-related crashes and injuries, including the use of 
motorcycle helmets.
    Just this morning, as a matter of fact, Secretary Peters 
held an event at the Department of Transportation in 
recognition of Ride to Work Day, highlighting motorcycle 
safety. In November 2007, Secretary Peters announced a new 
departmental action plan to reduce motorcycle fatalities. The 
plan includes a comprehensive range of initiatives, including 
rider education, tougher standards for helmet certification 
labeling, law enforcement training, and road design that can 
consider motorcycle handling dynamics.
    The growing number of older drivers also requires 
attention. As the Ranking Member just mentioned, in the United 
States we are facing a surge in the population of those over 
the age of 65. In 2006, there were 30.1 million older licensed 
drivers, which was an 18 percent increase from 1996. NHTSA's 
policy is to promote safe mobility for older riders, to help 
seniors drive as long as they can do it safely, and to 
encourage the development of transportation alternatives for 
those who can no longer drive.
    NHTSA developed an older driver strategic plan to better 
target agency programs and resources to address this at-risk 
growing population. Key areas of focus include skills screening 
and assessments, licensing, counseling by medical providers, 
public information and program promotion and other activities.
    At the other end of the driving spectrum, NHTSA also has a 
strategic approach to addressing teen drivers. In 2006, young 
drivers between 15 and 20 years old accounted for 6.4 percent 
of the total number of drivers, but accounted for nearly 13 
percent of drivers involved in fatal crashes.
    Through these behavioral and technology efforts, NHTSA 
seeks to reduce the total motor vehicle crashes in this 
Country. Many of these crashes and fatalities are preventable, 
and through greater implementation of proven safety 
countermeasures, we believe that thousands of additional lives 
could be saved each year.
    Madam Chairwoman, thank you for your consideration and this 
Subcommittee's ongoing efforts to improve highway safety, and I 
would be pleased to answer any questions at the appropriate 
time.
    Mrs. Napolitano. Thank you, sir, for your testimony, Mr. 
Ports.
    We will move on to Ms. Katherine Siggerud.
    Ms. Siggerud. Madam Chair, Ranking Member Duncan, thank you 
for inviting GAO to this important hearing on NHTSA's traffic 
safety programs.
    While there is progress to report over the past decade, as 
the traffic fatality rate has decreased by about 14 percent, 
safety remains one of the key challenges facing DOT and the 
States. It is unfortunate that the number of traffic fatalities 
has remained at about 43,000 annually.
    We have recently published four reports on key NHTSA 
programs and my statement today is based on that work. Today I 
will cover, first, NHTSA's activities related to programs 
authorized in SAFETEA-LU; second, these programs' effectiveness 
in addressing traffic safety issues; third, observations from 
our work on safety for older drivers; and, finally, issues to 
consider in reauthorizing the programs next year.
    NHTSA has made substantial progress in implementing traffic 
safety grant programs and high-visibility programs. NHTSA 
provided guidance and developed programs quickly to implement 
SAFETEA-LU. In fiscal years 2006 and 2007, NHTSA awarded over 
$1 billion through its main formula grant and its incentive 
grants meant to induce States to adopt Federal priorities such 
as improved seat belt use. With regard to high-visibility 
campaigns, by these I mean the Click It or Ticket and the 
impaired driving program, known as Drunk Driving Over the 
Limit, Under Arrest. NHTSA has both developed and distributed 
advertisements and coordinated advertisement and enforcement 
activities with all States.
    In our April report, we raised concerns and recommendations 
about NHTSA's evaluation of these campaigns. NHTSA is 
considering changes as a result.
    With regard to oversight, we recommended in 2003, and 
SAFETEA-LU subsequently required, that NHTSA improve the 
consistency of its oversight of grants to States. NHTSA has 
done so by conducting management reviews every three years and 
working with the State partners to develop a useful review 
protocol. In our report issued Monday, we recommend several 
improvements, including that NHTSA consider the results of 
these reviews in identifying opportunities for technical 
assistance and training.
    With regard to these programs' effectiveness, it is 
generally too early to know whether programs established or 
changed since SAFETEA-LU are having an effect on crashes and 
fatalities. States told us that the programs are helping to 
improve traffic safety by addressing important issues such as 
unbelted and alcohol-impaired driving. State officials further 
said that incentives grants are good complements to the core 
safety program.
    But the incentive grants appear to have induced only 
moderate changes in State programs during this authorization. 
Overall, nine States have passed primary safety belt laws that 
can reasonably be ascribed to SAFETEA-LU incentives. Thirteen 
States have passed laws necessary to receive the Child Safety 
Seat grants, and no States have passed laws to meet certain 
criteria established for impaired driving grants.
    Each safety incentive grant has a separation application 
process, which is an administrative burden, especially for 
States with small safety offices. Some States would also prefer 
more flexibility in using the grants. This could become a key 
issue in the future as emerging issues, such as older driver 
safety, become more critical in States. We also noted that 
NHTSA does not have sufficient performance measures to assess 
the grant programs' effectiveness, but has begun the process of 
developing these measures.
    We issued a report last year looking at safety for older 
drivers, including licensing procedures. More than half of the 
States use licensing requirements for older drivers that are 
more stringent than for younger drivers, but not enough is 
known about whether these and other practices are actually 
effective in identifying problems in improving safety. We noted 
as a best practice States' use of coordinating groups to 
develop cross-agency plans for managing older driver safety. 
NHTSA and the States are sponsoring initiatives to develop such 
plans and assist States in implementing more comprehensive 
driver fitness assessments.
    In conclusion, this Committee and the Congress have a 
number of issues and opportunities to consider in the next 
authorization. I have already mentioned challenges associated 
with the incentive grants, including whether they, as designed, 
will be able to induce the changes the State legislation and 
the Congress would like to see. In addition, with the exception 
of the data improvement grants, these programs also generally 
do not relate State safety performance to the receipt or size 
of grants, and Congress would need to consider whether to tie 
funding more closely to performance. Congress will also hear 
suggestions to allow for more flexibility in using grant funds 
to address current and emerging safety issues. In our view, 
increased flexibility should be combined with quality crash 
data and accountability mechanisms to ensure that Federal 
dollars are going to the highest priority safety problems.
    Furthermore, the plateau of the number of annual traffic 
fatalities nationwide and changes in causes of fatalities may 
indicate that the current structure in traffic safety programs 
needs some change. For example, from 1997 through 2006, 
motorcycle fatalities increased by 127 percent, while child 
passenger fatalities decreased by 31 percent. Finally, speed 
remains an important factor and is not currently targeted by 
any of the programs I have discussed today.
    Mr. Chairman, this concludes--sorry, Madam Chair, this 
concludes my statement, and I will answer any questions you may 
have.
    Mrs. Napolitano. Thank you, ma'am.
    Next we will have Mr. Christopher Murphy give us his 
testimony. Thank you for being here, sir.
    Mr. Murphy. Madam Chair Napolitano and Ranking Member 
Duncan and members of the Subcommittee, thank you for allowing 
GHSA to be here today to talk about ways to improve highway 
safety.
    GHSA members administer one formula grant, seven incentive 
grant programs, and two penalty transfer programs. All of these 
programs have different requirements and different deadlines. 
These programs have been authorized in a piecemeal basis over 
the last several reauthorizations.
    GHSA recommends that a national strategic highway safety 
plan be developed. We also recommend that the national plan set 
a goal of towards zero fatalities. Instead of supporting a 
single highway safety grant program with performance tiers, 
States would like a single application with a single deadline 
and all the grant funds allocated October 1st. Congress should 
streamline the application process to allow more rationality in 
the State planning process. This change would mean that States 
would spend less time submitting grant applications and more 
time on program development and implementation.
    We also support more performance-based grant programs. GHSA 
is currently working with NHTSA to develop core performance 
measures that all States will begin using in 2010. 
Additionally, GHSA has also endorsed the idea of greater 
flexibility between behavioral highway safety grant programs. 
Currently, there is no flexibility. States want to be able to 
shift a percentage of their incentive funding to the emphasis 
areas where they have the greatest need.
    GHSA supports making changes to the various incentive grant 
programs. We support expanding the purpose and scope of the 
2010 motorcycle safety program and combining the three occupant 
protection programs into a more performance-based one. We also 
strongly support the idea that the eligible activities under 
the 410 2010 and the occupant protection program be expanded.
    GHSA is supporting a new program to combat excessive speed. 
The program would provide incentives to States that implement 
speed enforcement and automated speed enforcement, speed paid 
media and educational campaigns or speed management workshops. 
GHSA also recommends that Congress fund a national campaign to 
re-educate the public about the dangerous consequences of 
speeding, a biennial national speed monitoring data collection 
study to determine how fast the traveling public is actually 
going, and research into emerging technologies for measuring 
and controlling speed.
    We also very strongly support substantially increased 
funding for data improvements. The current $34.5 million 
program is just not adequate. Performance-based programming is 
heavily dependent upon good data, so it is imperative that 
improvements be made in State data systems. We also support 
increased funding for traffic safety research. States should 
have the ability at the same time to pool their funds to fund 
research that would supplement the Federal research. The NHTSA 
behavioral research program and FHWA safety research program 
should also be increased.
    Training is also a big issue for GHSA. There is concern 
that many directors of highway safety are retiring and there is 
not adequate training for new directors, nor is there training 
to attract young professionals into the field. Training is a 
problem government-wide, but it is particularly acute in 
highway safety. GHSA supports AASHTO's recommendation for the 
development of a AASHTO-GHSA Highway Safety Center of 
Excellence, funded at about $3 million annually. We also 
support increased funding so that NHTSA can enhance its 
training capabilities.
    GHSA strongly supports the continuation of and improvement 
of the strategic highway safety plan. As an association, we 
continue to oppose new sanctions. States are already sanctioned 
for failure to enact seven different highway safety laws. They 
are making progress on high BAC, booster seat, and graduated 
licensing laws. We would, however, vigorously oppose any effort 
to roll back the national minimum drinking age sanction.
    In summary, Madam Chair, the Association is not 
recommending major changes to the current grant programs. GHSA 
has recommended that the current grant planning and application 
process be streamlined. The program should be more performance 
based with greater flexibility between behavioral programs, and 
that some programmatic changes should be made to the 
incentives.
    Thank you.
    Mrs. Napolitano. Thank you for your testimony, Mr. Murphy. 
The information that you have given us is appreciated. Of some 
interest was your statement in regard to reducing speed also 
saves energy, lowering gas mileage to reduce the 33 percent 
highway speeds, and the rule of thumb is this should be out to 
the consumers right now since gas is so expensive, that for 
each 5 miles per hour they drive above 60 is like paying an 
additional 20 cents per gallon for gas. Is that including 
today's gas prices?
    Mr. Murphy. Those are the latest figures that we have.
    Mrs. Napolitano. Okay. That is significant. In areas of 
different questions that I had--and I have a lot of them, so I 
will defer to some of the members in a minute--I still have 
some issues with the COPS policing grant in California, whether 
they are utilizing--and I don't know whether the States are the 
same--some of their funding to be able to conduct daytime 
immigration checkpoints, but checkpoints in general. And what 
correlation have they found because most people are driving to 
or from work, or they are delivering or they are going to 
appointments, versus nighttime, after work, go have a couple of 
drinks and then getting on the road, driving that might affect 
the actual public safety.
    Whether or not there is consideration in your governor's 
focus of being able to identify what other safety issues can 
come up at checkpoints that might then be more geared towards 
whether it is teen driving, driving under the influence, or 
even during the daytime, during school hours, in schools, when 
kids are taking off and not going to school, being truant, and 
already possibly being under drug influence. I was suggesting 
that we change the Mothers Against Drunk Drivers to Mothers 
Against Drunk and--well, Impaired Drivers, which would include 
anything else, because those are serious problems our 
communities are facing today.
    Mr. Murphy. Madam Chair, in California, our policy, through 
my office, is that we only fund checkpoints that start after 
6:00 in the evening, so I can't really respond to checkpoints 
that are done during the day, because they are not being done 
with federal funding. So we know that checkpoints are the most 
effective countermeasure out there for DUI. In California they 
can only be conducted in areas on streets that have a high 
incidence of DUI arrests and/or alcohol-involved crashes. So 
our checkpoints generally run anywhere from 6:00 to 2:00 in the 
morning or 8:00 to 2:00 in the morning. I am not really sure 
about daytime checkpoints.
    Mrs. Napolitano. Okay. And you are recommending Congress 
implement a speed management program to provide incentives to 
States to address speeding. Is there a technology that you know 
of--I know one gentleman in the audience is from the auto 
industry--that would equip a car with a sensor to be able to 
detect alcohol impairment, something that the industry would 
help address to be able to then negate an impaired driver from 
getting behind the wheel?
    Mr. Murphy. Madam Chair, I know a little bit about that, 
but I really should defer to my colleagues at NHTSA, who could 
probably better answer that question.
    Mrs. Napolitano. Okay.
    There are other questions, but I think what I will do is I 
will yield to my Ranking Member, and I will continue the 
questions. There are other members here.
    Mr. Duncan. Well, thank you, Madam Chairwoman, but I want 
to go first on our side to Mr. Poe.
    Mr. Poe. I want to thank the Ranking Member for yielding. I 
have basically two questions for Mr. Ports.
    Talk about buses that transport kids. Not the old-fashioned 
yellow school buses, but these high-dollar big buses that we 
think are safer than school buses when kids are transported 
from, let's say, a town to another town for an athletic event. 
We had two teenage girls in a State playoff killed in a bus 
that turned over, and these massive windows shattered and they 
were both killed. Correct me if I am wrong, these big buses are 
really more dangerous in a crash that old-fashioned school 
buses. What is being done, if anything, to rethink the way we 
build these massive buses, especially those that transport kids 
from event to event?
    Mr. Ports. Thank you very much for that question, Mr. 
Representative. What NHTSA has done is we have been very 
aggressive in trying to look at that situation as it involves 
motorcoach safety. One of the things we recently did was, in 
December, for the first time in NHTSA history, we crashed a 
motorcoach. We wanted to find out what the pulse of that 
vehicle was so that we could then devise a sled device so we 
could further research how we can make motorcoaches safer.
    We equipped that motorcoach with several dummies to look at 
how they would react to seat belts, how the seats would react, 
different seats in a motorcoach would react, and we are taking 
that information now and trying to come up with some policies.
    To address fully your question about the windows, we are 
also looking at the glazing issue of the motorcoaches.
    So we are starting to address those and we hope to have 
something completed by December.
    Mr. Poe. Is the motorcoach industry actively trying to come 
up with some solutions? Are they an obstacle, are they 
cooperating, or what, in your opinion?
    Mr. Ports. Well, they were actually in attendance at the 
crash, so they are very interested in working with us on some 
safety measures.
    Mr. Poe. Another question has to deal with age of drivers. 
If you could give me some statistics. Under 25-year-old drivers 
account for approximately what percentage of the fatalities in 
the United States? Just approximately.
    Mr. Ports. I believe it is about 15 percent right now, but 
let me get back to you on that question.
    Mr. Poe. Well, is it true that younger drivers, percentage 
wise, commit more fatalities as the driver than people that are 
older? I don't want to talk about senior citizens. I think the 
Ranking Member will get to the senior citizens in a minute. But 
is that true or not?
    Mr. Ports. It is. As a matter of fact, the percentages of 
teen drivers, as I mentioned, they are about 6.4 percent of the 
total driving population, but represent about 13 percent of the 
fatalities. So they are definitely over-represented in the 
fatality and crash injury of all drivers.
    Mr. Poe. Talk about a little heresy here. What if we raised 
the driving license age? Would that have any significant effect 
on loss of teenagers that are getting killed?
    Mr. Ports. To be honest with you, I am not sure of that 
answer. I could have some of our folks at NHTSA look into that 
for you.
    Mr. Poe. I would like to know if that isn't a fact. It is 
true, is it not, though, that teenage drivers account for a 
disproportionate number of fatalities that are alcohol-related? 
Is that correct?
    Mr. Ports. That is correct. As a matter of fact, they 
shouldn't be drinking to begin with.
    Mr. Poe. That is right. Not until they are 21.
    Mr. Ports. They are not 21, right.
    Mr. Poe. All right, that is all my questions.
    I yield back the remainder of my time. Thank you.
    Mrs. Napolitano. Mr. Arcuri.
    Mr. Arcuri. Thank you, Madam Chair.
    Thank you for being here. I have a couple of questions. The 
difference in the number of deaths as it relates to the speed 
limit, do any of you know the difference in terms of the 
numbers when the speed limit was 55 miles an hour and what the 
percentage are when it is 65 or 70 miles an hour, as it 
increases?
    Ms. Siggerud. Mr. Arcuri, I have to say the GAO actually 
did a study on that way back in 1977, and there has been some 
updated information. We have a new request from Senator Warner 
to look specifically at this issue of the speed limit as it 
relates to energy efficiency and safety. I would certainly be 
glad to provide some information to you for the record on that.
    Mr. Arcuri. Great. I appreciate that. Thank you.
    Second question is we see a lot on the road of the doubling 
of fines in work zones. Has that had any success in terms of 
more compliance? Are people complying more with the speed 
limits? How has that affected the number of fatalities in work 
zones?
    Mr. Ports. To be effective, any time you have an increase 
in the fines, you also have to have enforcement. That is a 
critical factor. We do know that proper enforcement in any 
zone, whether it be a speed zone, a school zone, or any other 
roadway, has a significant impact on the behavior of those 
individuals.
    Mr. Arcuri. I believe that there have been some significant 
grants that have been given out to law enforcement to enforce 
speed limits within the work zones in the past few years.
    Mr. Ports. That is correct, sir. That is Federal Highways 
that provides those grants, that is not NHTSA. But, again, we 
would be more than happy to get with Federal Highways and get 
that information for you with work zone safety.
    Mr. Arcuri. Great. I appreciate that.
    Thank you, and I yield back.
    Mrs. Napolitano. Mr. Duncan?
    Mr. Duncan. Go ahead to other members, I will go last.
    Mrs. Napolitano. Okay, Mr. Sires.
    Mr. Sires. Thank you, Madam Chair, and thank you very much 
for the panel being here.
    You know, despite great efforts in the State of New Jersey, 
this year we had 280 deaths on the roads, in 2008. In my 
district alone we had 70. I really believe it is vital that we 
come up with whatever we can to reduce the fatalities. Some of 
our current problems are educational, while others, such as 
mandatory seat belts, are all mandatory.
    In your review of traffic programs, how much more effective 
is it in curbing the behavior of drivers when you fine the 
drivers as compared to educational programs for the drivers?
    Ms. Siggerud. There has been extensive research on this 
very concept of is an educational campaign sufficient to change 
behavior, or does taking enforcement action through fines or 
other means, through core process, is that important to 
reinforcing the behavior change, and it is very clear that 
combining enforcement activities with an educational campaign 
is the most effective way to get change in behavior by drivers 
both at the time of the campaign and that lasts over time. The 
educational component by itself has generally only a relatively 
small effect.
    Mr. Sires. So when they are fined and they are required to 
go through an educational process, you find that that is the 
most effective, or just----
    Ms. Siggerud. Well, the research shows this really in two 
ways. One is, of course, those that have gone through this 
enforcement process may change their behavior. But, in general, 
the visibility of enforcement together with education has the 
potential to change many other drivers' behavior as well.
    Mr. Sires. Another one of my pet peeves is this driving 
with the cell phone in your ear. I know in New Jersey we banned 
that, but you get on the Jersey Turnpike and everybody has it 
without the piece in their ear. How effective are these laws 
when it comes to something like cell phones in your studies? 
Are they a deterrent or do we have to go back to a fine and 
education? I am just trying to get a way of how we enforce 
this, because most people just seem to ignore it. And I am not 
an abuser; I have my little earpiece.
    [Laughter.]
    Mr. Ports. Again, thank you for that question. What we have 
found is that licensed sanctions and fines are probably the 
best deterrent, as mentioned, but, also, again, it goes back to 
enforcement. If there is a strong enforcement component, then 
you would see changes in behavior. As a matter of fact, you 
will be very happy--I am sue you are very happy to know that 
southern New Jersey just joined the Smooth Operator program to 
combat aggressive driving this year as a regional program, so 
you are starting to see----
    Mr. Sires. This is the southern part of New Jersey?
    Mr. Ports. Yes, sir.
    Mr. Sires. How do you divide south and north?
    Mr. Ports. That is up to them.
    [Laughter.]
    Mr. Ports. They do that, not us.
    [Laughter.]
    Mr. Sires. Thank you very much.
    Mrs. Napolitano. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Madam Chair, and thanks to the 
witnesses. I apologize for being a little bit late, but let me 
ask a question to Mr. Ports, if I could. And any of you all 
might join in if you have something to add to it.
    What role does increasing congestion play in the number of 
accidents and related deaths? Are more congested cities or 
highways more dangerous from a statistical point of view than 
the ones that aren't?
    Mr. Ports. Thank you very much for that question. What we 
have found through our research--and we are rolling out a new 
program for rural safety as we speak--is that most of the 
fatalities occur on rural roads, and usually a divided highway 
with traffic coming in each direction. Some of that is because 
of the way the roads are structured; you have a lot of hills, 
turns, curves, trees, utility poles very close to the roadways, 
and, of course, cars are close to each other as they are 
passing. And then, of course, you have aggressive drivers who 
change lanes when they should or should not, at times.
    So what we have found is that, as it gets congested, people 
obviously slow down and you do have a lot of crashes, but there 
are not as many fatalities.
    Mr. Brown. Okay, let me ask you another question. Since 
2000, injuries in motor vehicle crashes have dropped by about 
500,000 per year; yet, fatalities have stayed level, at between 
40,000 and 45,000 a year. How would you relate to that 
statistic?
    Mr. Ports. Thank you very much. That is one of the more 
frustrating things to us, is the way the numbers are used. But 
if you look at how we measure the statistic, what we do is we 
take 100 million vehicle miles traveled and we look at the 
fatality rate. The fatality rate has been decreasing 
significantly. And, of course, we have dedicated employees 
throughout NHTSA working on that every day; their mission is to 
save lives and reduce injuries every day.
    Although the numbers are staying the same, flat, as you had 
mentioned, the overall number, there are a significant amount 
of motorists out there registered and driving, as well as more 
vehicle miles being traveled, so statistically we are reducing 
that rate. But, more importantly, as I mentioned, our mission 
is to reduce fatalities and injuries, and we don't look at just 
the statistics or just the numbers; we look at each and every 
one of these as a person and a family member and a community 
member.
    Mr. Brown. One final question. How does your administration 
work with research and innovative technology administration and 
its intelligent transportation system joint program office to 
integrate safety priorities into design and development of 
intelligent transportation systems?
    Mr. Ports. We work very extensively with them and we also 
have just rolled out the new NCAP, our new vehicle program, 
which talks about technology. What we have found is that most 
of the cars throughout the United States are getting four and 
five stars, as you are probably aware, so we have rolled back 
that a little bit and looked at technology and how we can 
introduce technology side impacts and ESC, electronic stability 
control, and all these future technologies so that we can give 
the consumer a better idea of how technology can benefit them 
and the safety of their families.
    Mr. Brown. I know there are automobiles now that give you a 
little alarm if you back up and you get too close, and I was 
just wondering if that technology is being further advanced to 
give early warnings for maybe crossing the center line or maybe 
some other safety factors that might be included.
    Mr. Ports. That is an excellent question, and, yes, we are 
very interested in that technology. We are working with the 
auto manufacturers on technology for lane departure, so if you 
go on either side of the lane, it will warn you before you 
leave the road, because that is what we are trying to prevent. 
There are also technologies out there for automatic braking 
that we are working with with large trucks, that will determine 
if they are too close to a vehicle or if they are drowsy, for 
example, and not paying attention, it will automatically stop 
that vehicle. We are also looking at further technologies with 
backing up and what we call vehicle-to-vehicle communication to 
determine if a vehicle is in your blind spot.
    So all these technologies, we are very excited about 
technology at NHTSA and how it can help prevent injuries and 
save lives.
    Mr. Brown. Thank you very much.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Brown.
    Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Last year, I wrote something in a newsletter I sent to my 
constituents, and I said this: drunk driving standards were 
toughened in most after the Congress passed laws to withhold 
some Federal money if alcohol levels were not lowered. Now, 
with our aging population, some want to make it tougher for 
senior citizens to renew driver's licenses because there is a 
myth about them being very unsafe drivers.
    However, the National Highway Traffic Safety Administration 
recently found that drivers 75 and older are the safest drivers 
of all. The next safest are those 65 to 74. And this is based 
on the crash rate per 10,000 drivers. In this study, the lower 
percentage was better, and the figure for those 75 and over was 
2.5 percent, while the rate for those 16 to 20 was 13.3 
percent.
    Now, that was from a chart that was published in The 
Washington Post. That is a dramatic difference. Now, that 
applies just to accidents.
    We have a chart that is on the screen now that shows 
something a little bit similar, except this pertains only to 
fatal crashes. It shows, once again, those over 65 have the 
lowest percentages of fatal crashes. Now, it does show a 
dramatic difference between male and female drivers. I read, a 
couple years ago, that there is only one thing that 100 percent 
of the people in this Country agree on, and that is that 
everybody thinks they are a good driver.
    [Laughter.]
    Mr. Duncan. Now, that may be true, but what these two 
different studies show is, number one, that the older drivers 
are safer. Now, I do understand there is some statistic that I 
am a little bit confused about, that when older people who are 
riding as passengers are involved in these bad wrecks, they are 
more likely to be killed than the younger people; and I guess 
that is true. But they are safer drivers.
    I will ask you, Mr. Ports, do you have any kind of program 
aimed at pointing out to male drivers how bad they are in 
comparison to women drivers? But more seriously, are you aiming 
anything particularly at the high schools? Because there is a 
private foundation that contacted me a few months ago, and they 
sent this young man who was a star football player in 
California who was seriously brain damaged in a bad wreck 
because of alcohol, and they send him around all over the 
Country; he has been on the Today Show. I don't remember his 
name right at the moment, but they offered to do that in a high 
school in my district and we went and we did that. I was there 
and introduced the program and so forth. It had a real effect 
on those young people.
    Now, that was being done privately. What are you all doing?
    Mr. Ports. I really appreciate that question.
    By the way, Madam Chairwoman totally agrees with you, the 
difference between male and female drivers. I saw her head 
shaking vigorously and her smile was from ear to ear.
    We are trying to address that, as a matter of fact. Many of 
our programs now, the Click It or Ticket, the Over the Limit, 
Under Arrest campaigns--which, by the way, thank you very much 
for the $29 million per year to do those campaigns--we are 
starting to target young people, for one, but males in 
particular. We are trying to do that for the very reasons you 
said. We recognize that about 64 percent of the teens who die 
in fatalities die because they are not wearing their seat belt, 
and that is a statistic that we need to change.
    As a matter of fact, in our Click It or Ticket program that 
I just did a whirlwind tour on the west side of the Country, we 
brought out individuals like you just mentioned, two males 
involved in a crash going about 60 miles an hour; one of them 
hit a wall. He was almost totally decapitated and his passenger 
was wearing a seat belt and walked away from the crash.
    We need to educate teens, especially males, who think they 
are invincible. I am sure you had teenagers too; you understand 
how difficult it is to get them to clean their room, let alone 
wear a seat belt in a vehicle. It is a very difficult 
proposition to get them to understand they are not invincible. 
We are doing our best to do that through creative campaigns. We 
had someone on Click It or Ticket. You would notice it looked 
like aliens were coming down. We are trying to focus on ways 
that they might relate.
    We are also doing some peer-to-peer reviews. We are working 
with school-aged children, especially high school age, through 
some of the programs and the NOYS organization to effectively 
address the teen situation, but we do know this: it is speed, 
it is not wearing a seat belt, and it is, as you mentioned, 
drinking and driving. And, quite frankly, they are not supposed 
to be drinking anyway because they are below the age of 21, so 
we need to address that problem, and we are going to need 
parental help in that area. We need parents to take 
responsibility and work with their children, and we need to 
have law enforcement out there doing their best, and they are 
doing, by the way, a terrific job.
    Mr. Duncan. Well, I can still remember--in fact, as I am 
sitting here thinking about it, I can picture in my mind when I 
was in high school, there was this terrible wreck, and just a 
group of people on their own--it wasn't the government that did 
it--they brought that crashed car that was just all smashed up 
to our high school and set it out in front of the school for a 
few days, and, boy, I tell you it made an impact. We need to be 
doing things like that in all these high schools all over the 
Country, and showing things on videos and all kinds of things.
    Is NHTSA doing anything to ensure the safe operation of 
these 15-passenger vans? We are going to hear some testimony 
about that on the next panel.
    Mr. Ports. Yes, sir, absolutely we are. We are working very 
aggressively on the 15-passenger van situation. As you know, 
Administrator Nicole Nason put out an announcement earlier in 
the year. By the way, I want to thank you for your resolution--
I think it was 964--in April of this year to address that 
problem.
    There are a few things that we definitely know about the 
15-passenger vehicles. One, we did put electronic stability 
control, we mandated electronic stability control in all 
vehicles starting in 2011, which we believe is probably the 
next best safety device and countermeasure since the seat belt. 
We expect that to help in these rollover situations and reduce 
the risk of rollover. We also have been very aggressive in 
talking about maintenance of tires and tire pressures. It also 
saves energy, Madam Chairman. But it is very important to the 
safety of your family and the vehicle and its performance.
    We also recognize that one of the problems with the 15-
passenger vans is overloading. When you overload that vehicle--
and there are specifications in the door jams of every vehicle 
with the weight the vehicle can handle. We need people to 
understand the capacity of these vehicles.
    Again, as I mentioned, we want to recognize your resolution 
that you were proactive in passing, which really addresses the 
inexperienced drivers. When you have all of these other factors 
occurring and you put an inexperienced driver into the seat of 
that 15-passenger van, in the driver's seat, I should say, that 
is potential for a hazard.
    Mr. Duncan. All right, thank you very much.
    Ms. Siggerud, one thing I have become really concerned 
about the last couple of years has been motorcycle wrecks and 
deaths, because I started noticing on the second page of the 
local section of the Knoxville News Sentinel, almost every day 
they have a story about a motorcyclist being killed. Then, I 
also have been reading that the numbers of people 40, 50, and 
60 that are buying motorcycles is just exploding, going way, 
way up.
    In your study of all this--you even, I think, have noticed 
the number of motorcycles registered is going way up and 
predicted that it is going to go up even further--are there any 
States out there that are doing dramatic or unusual or very 
innovative programs about motorcycle safety?
    Ms. Siggerud. Mr. Duncan, it is an excellent question. In 
our work we did notice all the problems that you mentioned, and 
it is, I think, most interesting to note that the fatality 
numbers that we are seeing now are very much driven by the 
motorcycle fatalities. If it weren't for the increase in 
motorcycle fatalities over the last decade, we would see this 
annual number actually make some progress and start to go down 
over the past decade.
    In our work on this issue, we did not study specifically 
what activities States were undertaking and whether some of 
them were particularly interesting or innovative. What we did 
hear, though, in looking at the motorcycle incentive grants, 
which we did earlier this year, that is one of the smaller 
grants in the incentive grant program and it is also restricted 
largely to education-related activities. So we raise as an 
issue for authorization next year whether there perhaps are 
some different approaches that could be used in that grant to 
make it more effective.
    Mr. Duncan. I just think, based on what I have been reading 
and hearing, that maybe we ought to increase that grant program 
more, maybe, than perhaps some others, because it looks to me 
like there needs to be some special efforts directed in that 
way also.
    Mr. Murphy, according to your testimony, you say we can be 
on a path towards cutting accident fatalities in half by 2030 
by simply annually reducing losses by 1,000 per year. You note 
that we came close to that in 2006. Do you know of anything 
that we were doing differently then or better then, as opposed 
to prior years, or do you have any key suggestions in regard to 
all these things I have been asking these other witnesses?
    Mr. Murphy. Thank you for the question, Ranking Member 
Duncan. A lot of this has to do with high-visibility 
enforcement programs. More and more States are participating 
and more local agencies are participating. I think with 
motorcycle safety, one of the key things States need to do is 
pass mandatory helmet laws for all riders. For seat belt 
safety, States need to pass primary seat belt laws. These are 
two critical lifesaving laws that we know will save lives.
    I think it really comes down to the education, enforcement, 
and engineering, but high-visibility enforcement, be it Click 
It or Ticket, Drunk Driving Over the Limit, those programs have 
been very successful.
    Mr. Duncan. All right, thank you very much.
    Mrs. Napolitano. Second round, Mr. Sires.
    Mr. Sires. I just have a quick question. When I went to 
high school, we had a very good driver's ed program, where they 
actually took you on the road, they had the cars and everything 
else. But we notice, due to the budget crunch, a lot of the 
schools are going away from that. Have you noticed that as a 
national trend in most of the States because of the problems 
with the budgets on the board of educations, that they are 
reducing their driver's ed program? Anyone.
    Mr. Ports. I am not sure I can answer from a total national 
standpoint, but we have seen that a lot of the States have 
moved from the high schools into the privatization of those 
schools for budgetary reasons, yes.
    Mr. Sires. Thank you. Anybody else? No? Thank you.
    Mrs. Napolitano. Yes, I will give her a chance to settle 
down, then I will ask some questions. You are going to have 
some questions, Ms. Richardson? I will let you mull it over.
    One of the questions that I had mulling in my mind, and we 
have discussed this, the Click It or Ticket, but how effective 
is it in States without primary seat belt laws, or is it 
effective? Anybody?
    Ms. Siggerud. Well, the Click It or Ticket campaign in 
general, you can see the before and after effect, where you see 
an increase in seat belt use in the wake of these Click It or 
Ticket campaigns in any State. But it is very clear that there 
is a strong correlation between the overall, year-long use of 
safety belts and whether there is a primary law in place; and, 
of course, the use is much higher in States that have the 
primary law.
    Mrs. Napolitano. Anybody else?
    Mr. Ports. Sure. Thank you, Madam Chairman, for that 
question, it is an excellent question.
    We know that States with secondary laws average about 73 
percent usage. Yet, States with primary seat belt laws average 
about 87 percent. We also know, through our statistics and 
data, that for every percent increase, it is about 280 lives 
saved. That is a significant number. So the more that we can 
induce primary seat belt laws, and the more education we can 
have through the Click It or Ticket campaigns to increase 
awareness and get people to use those seat belts would be very, 
very beneficial.
    Mrs. Napolitano. What is preventing, in your estimation, 
the States from enacting primary laws for seat belt usage? Is 
it willpower, is it political? Are you tying some of the grant 
money to the ability to have a primary seat belt law?
    Mr. Ports. Through SAFETEA-LU we do have a primary seat 
belt incentive grant, and sometimes people say it may not be as 
effective because there may only be eight States that want the 
primary laws, but we look at it a little differently. Like I 
said, we are very dedicated to saving each and every life, and 
for every percentage point, as I just mentioned, 280 lives 
saved. So we tend to measure that statistic a little 
differently, that we are doing a good job and we are educating 
the population.
    When you see numbers as high as 87 percent, that is 87 
percent of the people who are wearing their seat belts. That is 
a significant amount of the population. There are some States 
that are over 95 percent at this point, and that is a terrific 
number. But a lot of that, as I mentioned, is enforcement. So 
enforcement is a key component. I know that Chris Murphy, we 
worked very closely with Chris on many issues. This was one of 
the issues that I am sure he would agree with us, that 
enforcement is a key component of this strategy.
    Mr. Murphy. Madam Chair, if I might add, in California, we 
actually wrote more seat belt citations when we were a 
secondary State than when we became a primary State, and I 
think that is kind of an interesting fact. Primary seat belt 
use and the us of seat belts, there is nothing more important. 
It takes two seconds to buckle up. A lot of States legislatures 
feel that it is giving up freedom. They don't want someone 
telling them what to do.
    But, my God, primary seat belt laws will cure the disease 
of unsafe highways. It is something that will save lives 
overnight. In California, our seat belt use increased 10 
percentage points when we passed our primary seat law in 1993. 
It has been a phenomenal law. In California, our seat belt use 
is 94.6 percent. We are the fourth highest in the Nation, and 
our goal is to hit 96 percent next year, so we have a lot of 
work to do. And the people that are not buckling up now are the 
very, very hard to reach, especially when you get in the 90 
percent range.
    Mr. Oberstar. Madam Chair, would the Chair yield?
    Mrs. Napolitano. Certainly.
    Mr. Oberstar. In that context, what, then, has been the 
effect of improved seat belt use? That is a phenomenal number, 
I congratulate you on it, but what has been the effect in the 
traveled way in accidents? Have there been lower fatality 
numbers, lower injury numbers? That combined with air bags, can 
you enlighten us on that?
    Mr. Murphy. Thank you, Congressman. One of the interesting 
facts is that, in California, a very high number of fatal 
vehicle occupants are killed restrained. We have the highest in 
the Nation. So we know that seat belts are, as you know, 50 
percent effective in preventing death, and we have seen in 
California that our fatal occupant protection rate is the 
absolute highest. In other States--Oregon, Washington, Hawaii--
they are at the top too.
    So there is a definite correlation between seat belt use in 
fatal vehicle occupants and our observational studies, which 
tell us we are absolutely saving lives. In California, I 
believe our fatalities this year should be down the biggest 
number probably in seven or eight years. So we really believe 
that more people would have died in California had we not had 
primary seat belt use and if we would not have had such a high 
seat belt use rate.
    Mr. Oberstar. What is your relationship between--if I may, 
Madam Chair----
    Mrs. Napolitano. Certainly.
    Mr. Oberstar.--between alcohol and accidents and fatalities 
and then seat belt use? Which has the greater effect?
    Mr. Murphy. Well, we know about 40 percent of all fatal 
crashes are alcohol-involved. But if you look at a behavior 
that is easiest to change, it is buckling up.
    Mr. Oberstar. Buckling up a lot better than driver 
education on alcohol use and driving?
    Mr. Murphy. I don't know that I would necessarily say that, 
but I think it is much easier to get someone to buckle up; they 
do it 16 times, it becomes a habit. A lot of people that are 
drinking now, the hard-core drinkers, there are other issues. 
So the seat belt is such an easy, easy fix.
    Mr. Oberstar. Thank you.
    Mrs. Napolitano. Thank you.
    Continuing with my line of questioning, to Mr. Ports, the 
GAO and the DOT Inspector General have raised questions with 
the inconsistency and the oversight of the State Highway Safety 
programs, and there have also been concerns over the 
consistency of the performance measures the agency uses in 
evaluating States' progress towards meeting its goals. There is 
a lot of talk about increased accountability in moving towards 
a more performance-based program. Consistent oversight and 
evaluation standards would be critical to establishing the 
accountability necessary to ensure States are meeting the 
national safety goals. And while it appears that the 
organization has made some progress over the last few years, 
the concerns remain.
    What are you doing to address these issues raised by both 
GAO and the Inspector General?
    Mr. Ports. Thank you, Madam Chairwoman. First of all, I 
want to thank GAO for their help in this issue, and also the 
IG's office that you just mentioned. Again, we are very 
dedicated to saving lives and reducing injuries, and we look to 
anyone that can help, and we appreciate all your help in 
Congress, too.
    In addressing this issue, we look at the management 
reviews, and we do those every three years. If a State is not 
making their performance criteria, then we work with them on an 
action plan. We also have the special management reviews that 
we are doing. And I believe the GAO's recommendation was to 
look at performance measures.
    I can assure you and the rest of the Committee that we did 
just that. We looked at that issue from GAO and we are working 
with GHSA, as well as the rest of the States. We have got about 
a dozen to 14 performance measures for the first time, and I 
believe Chris actually--we spoke a little bit about this 
earlier. He was very excited because the States have not had 
performance measures to look at before, and they too are 
excited about this process of being able to measure the 
performance of these grant programs.
    Obviously, one of the difficult issues is the diversity of 
the local jurisdictions and their ability. As we heard earlier, 
they may not have the personnel or the ability, and the 
diversity of the issues within that community. So we are trying 
to work with all those to mesh those together to come up with 
these performance measures moving forward. We are very excited 
about that. We have looked forward to working with the States 
and GHSA, and, of course, finalizing the report to GAO and the 
IG and yourselves on the progress that we are going to be 
making in the next few years.
    Mrs. Napolitano. Thank you for that answer. One of the 
questions that I had in mind after reading some of the 
testimony is that many States have national safety plans. You 
do not. Can we expect one?
    Mr. Ports. We work very closely with the States and make 
sure that each and every State has a safety plan. That is 
really what we are to do. We are the clearinghouse and we are 
looking to work with the States because, quite frankly, the 
States know their State better and their local jurisdictions 
better than we do on the national level. So we look at it as a 
cooperative partnership between the national priorities and the 
State priorities. As I just mentioned with the performance 
measures, they have different situations that they are in, and 
we need to work very closely with them.
    Mrs. Napolitano. Thank you. I know Canada has one. I am not 
sure how effective their plan is, but I am assuming that they 
are doing very well.
    There are other questions, I think, Ms. Richardson.
    Ms. Richardson. Yes, thank you, Madam Chairman.
    A couple of questions. First of all, is there an overall 
signage plan for the safety for what you do on the highways? Do 
we have a signage plan?
    Ms. Siggerud. Ms. Richardson, signage policy is really 
handled by the Federal Highway Administration, and there is in 
fact an entire manual----
    Ms. Richardson. Would you pull the mic up a little bit to 
you, please?
    Ms. Siggerud. Absolutely. Sure.
    So road signage and road marking is handled by the Federal 
Highway Administration, together with AASHTO, the organization 
of State DOTs, and there is an entire manual on what they call 
traffic control devices, which includes both signage, road 
markings, and traffic lights and that kind of thing.
    Ms. Richardson. But from a safety perspective, do you have 
a signage plan?
    Mr. Ports. No, we don't have a specific signage plan. 
However, what I can tell you, from a speed research 
perspective, NHTSA's role, what we are doing is we are working 
very closely with the States through the regional offices on 
speed management workshops. What we have found is that people 
in the communities, if they think a speed limit is arbitrarily 
set, they don't abide by it. So through these speed management 
workshops and the behavioral research that we have done, we 
found that if you set the speed limits appropriately and then 
create the enforcement behind that, that you have much better 
speed control. So----
    Ms. Richardson. Okay, excuse me. I don't know if you heard 
what I said. I am talking about signage, not speed. Let me give 
you a few specific examples. I come from the California area, 
as the Chairwoman of this Committee is holding right now. I 
have seen on various highways where you see the sign Click It 
or whatever. You rarely see anything about driving in my blind 
spot, some of the key things that are just repeated accidents 
over and over again: driving in the blind spot, are your tires 
properly inflated. A lot of these things, with proper reminders 
of drivers, could reduce some of the incidences that we have.
    So my question is do you have a signage program as a part 
of your safety program that could maybe incorporate 
periodically placing some signs that would be very good 
reminders to drivers to increase safety, besides the once every 
10 years when they take the driving test?
    Mr. Ports. Okay, I maybe can more effectively address that 
question.
    The States are allowed to use some of their grant funds to 
create signs if they decide that they would want to do it. For 
example, the seat belts, seat belt enforcement. I know that 
when I was in Washington State I saw quite a few signs that 
address that. So it is really up to the local governments to 
decide how they want to do that.
    In my previous life as a State deputy secretary, we also 
had to abide by the highway beautification laws from, I guess, 
1968, that try to reduce the amount of signages. One of the 
issues that we hear a lot in the communities is the 
overabundance of signs. So I think it is up to the local 
governments to decide how that issue would fare with their 
constituents.
    Ms. Richardson. Would you mind looking into some of the 
major causes of incidents of accidents and maybe doing a double 
check of that and seeing if there is something you may want to 
recommend or at least have the States to consider?
    The other thing is the use of electronic boards. We 
recently, in California, had the whole thing of hands-free and 
no longer being able to use your cell phone, and the electronic 
boards that normally dictate the flow of traffic and what is 
happening ahead was utilized to announce that today is July 1st 
and this is now into effect.
    So the other question I would have is to what degree are 
you, from a safety perspective, utilizing those electronic 
boards? Now, of course, you can't do them every day and every 
month, but there might be some coordination that could exist 
that, for key problems that you have; Click It, drunk driving, 
whatever it might be beyond the 4th of July on the holiday we 
should be talking about not doing drunk driving, it could be on 
the weekends.
    So I would just urge you to evaluate some of the consistent 
problems that we are having and look at some of the existing 
signage that you have and how we could better utilize that to 
reach out to the drivers.
    Mr. Ports. We actually work with the States on our Click It 
or Ticket program and our Over the Limit, Under Arrest drunk 
driving campaigns to do just that. But we would be more than 
happy to look into that issue further and get back with you. 
That is a terrific idea.
    Ms. Richardson. Okay. Then I have 14 seconds. I understand 
my colleague asked a little bit about cell phones, and I was in 
another Committee markup. Has there been any discussion about 
out-ruling texting while people are driving nationwide? Has 
there been a discussion? Have you thought of that?
    Mr. Ports. NHTSA's position on any distraction is that we 
don't think anybody should do anything that would distract them 
from driving. However, we also need to keep in mind that we 
only have jurisdiction over what is in the vehicle from the 
manufacturer's standpoint. As far as a cell phone or texting 
with a cell phone that you bring into the vehicle, we do not 
have jurisdiction over that, so then it becomes a local 
jurisdiction decision.
    Ms. Richardson. Are GPS systems under that same?
    Mr. Ports. If the GPS system is part of the vehicle, from 
the manufacturer, we can address it. If it is brought in from 
your local store, then we cannot; we do not have jurisdiction 
over that.
    Ms. Richardson. Okay.
    Thank you, Madam Chairwoman, for giving me the extra 50 
seconds.
    Mrs. Napolitano. Thank you.
    Mr. Oberstar. Chairman Oberstar, sir.
    Mr. Oberstar. Thank you.
    I appreciate the testimony of this panel and the documents 
you have submitted are very well done, thoughtfully considered.
    Mr. Ports, I have a very particular interest in the 
national driver register. Actually, the idea of the national 
driver register was launched by our former colleague, 
Congressman John Rhodes, of Arizona, later the minority leader 
in the House. After he left Congress, I picked up on that 
initiative through a very personal involvement. A family across 
the circle from where we lived was devastated; their daughter, 
who had been a babysitter for our children, was killed when a 
truck crashed into their car pulled well off the traveled way 
up at Fall River, Massachusetts.
    The truck driver, as it turned out, had a driver license 
revoked in one State, suspended in another, and was still able 
to get a driver license from a third State, driving and 
careless and reckless, and one life was lost. All the family 
had broken bones. As I visited them in the hospital, they said 
all we want, we can't bring Cami back, we just want to do 
something so that people like this can't get on the road again.
    I looked up the national driver register and talked with 
then retired Congressman Rhodes, and in 1982 I was able to get 
language in the surface transportation bill to update the NDR, 
to have a pointer system operated by the State Association 
Motor Vehicle administrators. At that time drivers were being 
caught with multiple licenses, but there was a three-to four-
week delay because all the information was mailed in from the 
respective State motor vehicle administrative offices.
    With the pointer system and computers even in their, 
compared to today, infancy, we expected that there would be a 
substantial increase, and there was. But I am troubled by the 
IG report of significant delays in reporting from the various 
States into the NDR and then information back out to catch 
these bad drivers, for want of a better word, those who have 
manifestly demonstrated they shouldn't have another license. If 
they had it revoked or suspended or they have serious 
violations in one State, to try to get a license in another 
State, we shouldn't let those people out on the roadway when we 
have a mechanism by which to stop it. What attention have you 
paid to the NDR, to the report of the IG, and what plans do you 
have to take action?
    Mr. Ports. First of all, I appreciate that question. You 
are very knowledgeable, obviously, of this issue. Not only has 
NHTSA paid attention to this issue, I personally have paid 
significant amount of attention to this issue.
    Mr. Oberstar. Good.
    Mr. Ports. I have been working very closely with members of 
AMFA when they brought some situations to us earlier in the 
year; I have been working with our folks in NDR. You had 
mentioned the CDL situation, where people were able to get 
different licenses in different States, and you are right, 
Congress passed a law and we prohibit that now. The issue that 
the IG brought up to us is that the States were not providing 
the information according to law and/or regulation within a 30-
day time period.
    We were glad the IG brought that to our attention, because 
it helped us recognize that there is a lot of turnover in the 
States through the MVA or DMV directors or administrators, 
whoever the top person is in that State. They did not even 
realize that they had that requirement. So we worked very 
vigorously; we got the information, mailed out the letters 
right away. Administrator Nason did that, mailed them out to 
every State, making sure that they were aware of the 
requirements to report within 30 days.
    We are also working through that process with the 
judiciary, because part of the problem is, in the judicial 
process, they were not getting the information to the MVAs or 
the DMVs. So through this process of the IG making us aware of 
this situation, we were able to also work with the judiciary, 
thinking forward on other ways that may improve our successes.
    Again, I mentioned, we were working with AMFA. We have a 
great relationship; we constantly talk. I am also going to be 
speaking at their national convention. So we are all over this 
issue personally and through NHTSA.
    Mr. Oberstar. I am glad to hear of personal interest, that 
you are on top, that you are making those inquiries, you are 
talking to the association and on the NDR, but I would like 
some statistics updated on how many drivers are being caught 
applying for multiple licenses. How many have been intercepted, 
prevented? What is the effect of the computer-updated NDR? What 
additional steps should we take or are necessary to be taken? 
You have mentioned one, educate the State motor vehicle 
administrators on what their responsibilities are and on taking 
prompt and vigorous action. You mentioned earlier one important 
action we can take that immediately saves lives is seat belts. 
Another is keeping the bad drivers off the road.
    In this Committee room 20 years ago, I held hearings on the 
future of transportation in the post-interstate era. Among the 
demographic information submitted at the hearing was the 
projection that--this was 1987--that by the end of the decade 
of the 1990s, half of all drivers would be 50 years of age and 
older. That set off two tracks in my mind: one, more leisure 
time for driving, more opportunity to see the historical, 
cultural, archeological treasures of America, and I developed 
the National Scenic Byways from that; the second was a need for 
better signage, more visible signage, better retro-reflective 
material, better pavement marking material.
    And those projections proved right, we are now well over 
half of all drivers 50 years of age and older. People living 
longer, driving longer. Older people are involved in fewer 
accidents, but they have a higher fatality rate because of 
fragility of bones as you age. What steps are you doing, taking 
to deal with the older driver phenomenon?
    The Federal Highway Administration Byway, by the way, has 
been absolutely hopeless in their responsibility to promulgate 
a higher standard of retro-reflectivity, of pavement marking, 
shoulder striping, center striping, both yellow and white; and 
there is material out there that could be vastly better, 
especially on asphalt pavement in rain, and they have been 
hopelessly behind the curve on this. Now, NHTSA should be 
prodding them, pushing them, as a sister agency or brother 
agency--whatever you want to call it--in the department.
    Mr. Ports. To answer the first part of your question, we 
would be more than happy to get all that statistical data for 
you from the NDR system.
    Mr. Oberstar. Have you seen the two volume work of the 
University of Minnesota Center of Transportation studies on the 
older driver? I suggest you get a copy of the two volume work 
and read through it, it is a very, very useful document.
    Mr. Ports. Well, to address the older driver part of our 
question, we are conducting research and looking at assessments 
as screening tools to predict how older drivers might likely 
survive or be involved in a crash. We are also looking at the 
long-term post-crash medical outcomes of those drivers. We are 
gathering the information. GAO asked us to be a clearinghouse, 
and that is exactly what we are going to do.
    We are looking at fitness screening for other drivers by 
licensing agencies, family physicians, friends, and we are 
looking at all these other factors to determine how we can 
better address the vehicle side for older drivers to help them 
survive a crash or reduce injuries. So we are looking at those 
technologies also.
    Mr. Oberstar. Are you doing that under the special 
designation we included in the current law? The very first word 
of that acronym, SAFETEA-LU, is safe; safe, affordable, etc. 
There is $1,700,000 for research into traffic safety measures 
specifically directed at the older driver.
    Mr. Ports. That is correct, yes.
    Mr. Oberstar. Is the work you are referring to done under 
that or under other provisions?
    Mr. Ports. Most of the work we are doing is done under 
that. We also have demonstration projects in Missouri, New 
Jersey, and Virginia that I am sure you are aware of to 
establish older driver coalitions and enhanced driver referral 
programs. So all of these things that we have going on at NHTSA 
are trying to address the older driver situation, both from the 
vehicle side, the safety side, and behavioral side.
    Ms. Siggerud. Chairman Oberstar, if I may.
    Mr. Oberstar. Yes.
    Ms. Siggerud. You may be aware the GAO issued a report on 
this topic last year.
    Mr. Oberstar. Yes.
    Ms. Siggerud. And I can cover perhaps a little bit on the 
FHWA side.
    Mr. Oberstar. You are next on my list.
    Ms. Siggerud. Okay. So setting aside the retro-reflectivity 
issue, there is a manual of suggestions for improved signage 
and other improvements that would help older drivers in terms 
of navigating the roadway, navigating intersections, that type 
of thing. We did a survey and found that about half the States 
had adopted at least some of those recommended activities.
    What was interesting from that is that we saw much wider 
benefits than just for older drivers, however. Any improvements 
to street signs, any improvements to being able to navigate an 
intersection safely helps the entire population, not just the 
population that was targeted, the older drivers.
    Mr. Oberstar. Mr. Murphy, do you have any comments about 
retro-reflectivity marking material for pavement and signage? 
What is California doing about that? Goodness knows you have 
the biggest number of drivers and most miles driven and most 
vehicle miles traveled in California.
    Mr. Murphy. Mr. Chairman, unfortunately, that is not an 
area that I am familiar with. Our Department of Transportation, 
Caltrans, is very active in that area. We do have an older 
driver task force that is looking at that.
    Mr. Oberstar. Pavement markings and retro-reflectivity of 
signage is not under traffic safety in California?
    Mr. Murphy. It is under CalTrans.
    Mr. Oberstar. I will have to talk to Will about that, then, 
Will Kempton.
    All right, there are lots of other questions I have, and I 
see Mr. Boozman has arrived.
    I just want to ask about motorcycle helmet law. It is a 
dangerous area to walk into. Motorcyclists treasure their 
ability to get on the cycle and ride, as one of my friends 
said, and let the wind blow through my hair. Well, if I had 
hair, I might feel good about that myself. Hair is greatly 
overrated.
    [Laughter.]
    Mr. Oberstar. But your head is the first thing that hits 
the pavement in a crash, it is the heaviest single part of the 
body. I am reminded of a story in the State of Wisconsin that 
legislature enacted a motorcycle helmet law, and not long 
afterward the motorcyclists got up a petition, angry about the 
requirement to wear a helmet, submitted the petition to the 
legislature; they repealed the law the next session. In the 
aftermath of the repeal, there was a motorcycle accident; a 
cyclist went right into a truck, head-first, and killed. He was 
the first one to have signed that petition. It is a tragic 
story.
    What are you doing, if anything, about motorcycle helmets, 
at least in education, if not requirement?
    Mr. Ports. Thank you for that question. It is a very 
important topic, especially to Secretary Peters.
    Mr. Oberstar. Yes.
    Mr. Ports. As you know, she is an avid rider. Matter of 
fact, she spoke today at Ride to Work Day, and spoke 
specifically about her crash and how her helmet is in her 
office as a reminder of how it potentially saved her life when 
she crashed.
    Mr. Oberstar. A helmet saved mine on a bicycle.
    Mr. Ports. There you go. So she is all over this issue. 
Safety is second to none with her and Administrator Nason. As a 
matter of fact, what we asked Congress to do this year is to 
allow the States to use their 2010 monies from SAFETEA-LU, to 
allow the States to use that money for educating riders on 
helmet safety. That is one of the proposals.
    Some of the other proposals that Secretary Peters has 
initiated is the labeling of the helmet. She wants to change 
the way that we label them, so that you can't tamper with them, 
but so that you can't have these helmets that would disguise 
the DOT label as a safety label. So we are looking at 
increasing labeling effectiveness. We are looking at education 
measures.
    We also recognize that because of the heavy increase, 127 
percent since 1997, that there are a lot of other factors. 
Alcohol is a factor. We are looking at peer-to-peer counseling 
with riders to try and take away the keys, much like we did in 
other campaigns. We are also looking at the rider's age, the 
endorsement training programs through the States, as well as 
working with the motorcycle community. We work very closely 
with the motorcycle community. We have got Packy back here, who 
is a good friend of mine from Maryland, and others that we work 
with in that community to help educate rider training, and they 
do a fabulous job with rider training and equipment.
    Mr. Oberstar. Thank you.
    Thank you, Madam Chair, and thank my colleagues for their 
patience.
    Mrs. Napolitano. You are very welcome, and very good 
questions, Mr. Chairman. You had a little story about the 
motorcycle issue. I was in California when it was enacted, I 
was in the State legislature, and my niece, a motorcycle 
enthusiast, wrote a letter to me really calling me you know 
what because I had dared to prohibit her ability to ride 
without a helmet. About four months later she was involved in a 
traffic accident and the doctors told her had she not been 
wearing the helmet, she would have been dead. She is still 
walking with crutches, and this is about six years since that 
accident. So I understand.
    We went to the emergency hospitals and asked the EMTs and 
the doctors in charge about the fatalities, and 99 percent of 
them that replied indicated that if some of those who were 
involved in motorcycle accidents had been wearing a helmet, 
they could have possibly survived. So that was a big motivator 
for us, because a lot of those folks did not have insurance and 
the taxpayer ends up paying for a lot of those services. And 
while it is something that is a freedom--my husband keeps 
saying if my hair flew, I would like to have a convertible--he 
has no hair--so it is a great saying, but truly I think it does 
save lives.
    With that, I would like to turn it over to Mr. Duncan for 
his final question.
    Mr. Duncan. Well, I know we need to get very quickly to the 
next panel. But because Mr. Poe earlier today got into the 
issue about the safety, or lack thereof, of these larger buses, 
I did want to state for the record that we do have a bill that 
I think we are going to mark up fairly soon that directs NHTSA 
to look at occupant protection systems and window glazing and 
roof strength issues and things like that, and issue a rule on 
these issues. They basically are consistent with NTSB 
recommendations on motorcoach safety.
    But one last brief question I have. I pointed out earlier 
the dramatic difference between male and female accident and 
fatality rates, but, Ms. Siggerud, do you know if anybody has 
studied that? Do men drive more than women, on average?
    Ms. Siggerud. Well, that is certainly true, men do drive 
more than women, yes.
    Mr. Duncan. How much?
    Ms. Siggerud. I don't have those statistics at my 
fingertips, I am sorry.
    Mr. Duncan. Is it dramatic, is it a great deal of 
difference?
    Ms. Siggerud. I am sure that is something we could probably 
look up and get back to you. I wouldn't want to opine on that 
unless I had a stronger sense of the statistics.
    Mr. Duncan. All right. Okay, thank you very much.
    Mrs. Napolitano. Boys are more daredevils and they love 
speed.
    With that, I think----
    Mr. Oberstar. If there are no other questions----
    Mrs. Napolitano. Yes, Mr. Chairman.
    Mr. Oberstar. Just one final observation for our panel.
    Mrs. Napolitano. Yield to Mr. Chairman.
    Mr. Oberstar. That is, in May, I traveled to Europe to 
address the 27 transport ministers of the European Union, at 
their annual conference. In preparation for that session, which 
was very interesting and informative gathering--I talked to 
them about transportation in the U.S. and our plans for 
investment in the future, but one of their keen interests is 
safety.
    Now, the European Union has roughly 500 million people, 
about the same land area in its expansion as the United States. 
Five years ago they had 53,000 fatalities on their highways; 
last year they had 43,000 fatalities. They have made a dramatic 
drop in fatalities with enforcement, education, and better 
signage and dealing with alcohol and driving, and as in the 
case of Portugal, it is a crime in Portugal to use a cell phone 
while driving. They have cracked down on cell phone use, among 
other distractions.
    We will send you information on this, we have a compendium 
of information that I think you at NHTSA should have, if you 
haven't paid attention to it, that GAO should do, and to look 
carefully at the European practices. We ought to do at least as 
well. If we could have a 10,000 reduction in fatalities in the 
United States over the course of the next six-year bill, I 
would be thrilled, and families would be happy and there would 
be less grieving in this Country. We have got to do better and 
I tell you we are going to do better in the next transportation 
bill.
    You can comment if you wish.
    Mr. Ports. Well, thank you, Mr. Chairman. Just to let you 
know, we are members of the Economic Commission for Europe and 
very involved with the WP.1 and WP.29 Committees. We share 
information with them constantly. A terrific example of that is 
ESC, electronic stability control. They invented the technology 
in Europe; we mandated it on our vehicles first. I personally 
spoke over in Europe to talk about the effects of ESC and how 
successful we were in mandating that terrific technology. Since 
that time, they are now mandating it. They just had a 
convention in Geneva where they took up a GTR, and they are now 
mandating that technology and following our lead, if you will.
    So we work very closely with them in sharing information 
and we look forward to working with them in the future to 
reducing fatalities and injuries, as you mentioned.
    Mr. Oberstar. Thank you.
    Any other comments?
    [No response.]
    Mr. Oberstar. Thank you. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, sir.
    With that, we would like to thank the witnesses and dismiss 
them. We are very grateful for your testimony, especially the 
GAO's report, which I found very enlightening. Thank you very 
much to all three of you. With that, you are dismissed.
    We would like to call the second panel, Mr. Patrick James 
from the American Center for Van and Tire Safety, from 
Knoxville, Tennessee; Ms. Laura Dean Mooney, President, Mothers 
Against Drunk Driving, from Washington, D.C.; Ms. Jill 
Ingrassia, Managing Director, Government Relations & Traffic 
Safety Advocacy, AAA, in Washington, D.C.; Ms. Jacqueline S. 
Gillan, Vice President, Advocates for Highway & Auto Safety, 
Washington, D.C.; and the Honorable Bob Letourneau, New 
Hampshire State Senator, Motorcycle Riders Foundation, in 
Concord, New Hampshire.
    Welcome. Let's see, we will start off Mr. James, Ms. 
Mooney, Ms. Ingrassia, Ms. Gillan, and Mr. Letourneau.
    I believe Mr. Duncan has a couple of comments as an 
introductory to make to Mr. James.
    Mr. Duncan. Well, thank you very much, Madam Chairwoman. In 
my opening statement, I already mentioned Patrick James and the 
very tragic situation involving his daughter, Lexie, and he 
will tell a little bit more about that. But I do want to 
welcome him. As I say, I have a little over 700,000 bosses, and 
Mr. James is one of my bosses, and we have been working with 
him both through my office and the Committee staff here, and I 
appreciate that very much. I am very impressed by the efforts 
that he has been making in regard to trying to make our 
highways a little safer. I want to welcome him to the 
Committee.
    Unfortunately, I do have a meeting that I have to be at at 
noon, so I will have to leave in just a few minutes, but at 
least I will be here for Mr. James' testimony, and I want to 
welcome him here once again.
    Thank you very much.
    Mrs. Napolitano. Thank you, Mr. Duncan.
    With that, we will start with the testimony of Mr. James.

 TESTIMONY OF PATRICK JAMES, AMERICAN CENTER FOR VAN AND TIRE 
  SAFETY; LAURA DEAN MOONEY, PRESIDENT, MOTHERS AGAINST DRUNK 
    DRIVING; JILL INGRASSIA, MANAGING DIRECTOR, GOVERNMENT 
RELATIONS & TRAFFIC SAFETY ADVOCACY, AAA; JACQUELINE S. GILLAN, 
 VICE PRESIDENT, ADVOCATES FOR HIGHWAY & AUTO SAFETY; AND THE 
    HONORABLE BOB LETOURNEAU, NEW HAMPSHIRE STATE SENATOR, 
         MOTORCYCLE FOUNDATION, CONCORD, NEW HAMPSHIRE

    Mr. James. Madam Chairwoman, Ranking Member Duncan, and 
members of the Subcommittee, thank you for inviting me here 
today to speak to you. My name is Patrick James, and I am here 
with my wife Kelli and son Austin to talk with you about the 
deadly combination of 15-passenger vans, aged tires, and 
vehicles that are rollover-prone and lack occupant protection.
    I am testifying before you one year to the day I last 
talked to my daughter.
    Mrs. Napolitano. She is a beautiful young lady, sir.
    Mr. James. She was excited about going to play with her old 
softball team in a tournament in Savannah, Georgia the 
following day. Twenty-four hours later, my family and friends' 
lives were changed forever. At 12:30, July 17th, 2007, we 
started receiving phone calls from friends, informing us that 
Alexis had been in an accident. The van's left rear tire had 
ample tread and looked like new, but it was 13 years old; and 
when it failed on the highway in South Carolina, the van rolled 
over and my daughter was ejected, even though she was wearing 
her seat belt.
    I was pulling into the airport parking lot when I received 
a phone call from the ER doctor. He informed me my daughter 
Alexis, Lexie, James had died from heart failure. I remember 
sitting in my car, looking into the lobby of the airport, 
watching my son and wife, and knowing what I had to do, go tell 
her mom and brother that Alexis had passed away.
    I never gave a second thought to the vehicle Lexie would be 
taking to their tournament. But I have spent the last 12 months 
learning everything I could about 15-passenger vans and tire 
safety, and what I found out stunned me.
    These vehicles, which were first introduced in the 1970s 
and have a long history of single-vehicle rollovers accidents 
and lack general lack of crashworthiness. They are more prone 
to roll over than other vehicles and have higher rollover 
fatality rates than other vehicles. The odds of a rollover for 
a 15-passenger van increase more than 400 percent when the van 
is fully loaded. From 1997 to 2006, 15-passenger van crashes 
caused 1,090 occupant fatalities, and 534 of these people died 
in preventable crashes.
    I have also learned that tires degrade over time and heat 
exposure, regardless of whether they have been used or have 
adequate tread. As early as 1990, some manufacturers began 
warning consumers about the use of older tires more than six 
years old. Last August, NHTSA submitted a report to Congress on 
tire aging that affirmed this warning. The agency cited 
statistics from a large insurance company showing that 27 
percent of policyholders were from warm weather States--Texas, 
California, Louisiana, Florida, and Arizona. But 77 percent of 
the tire claims came from those States and 84 percent of those 
claims were for tires over six years old. According to a survey 
by Rubber Manufacturers Association, 16.4 percent of tires in 
service are six years old or older.
    Most tires will wear out before they ``age out.'' But there 
are many circumstances in which older tires end up on vehicles 
like the one my daughter was in. The most common is the full-
size spare that is put into service after many years in the 
trunk or under the car. Many 15-passenger vans are owned by 
community groups that don't use them on a daily or even a 
weekly basis. If the mileage is low, the possibility exists 
that the tire could exceed their safe, useful life. Our small 
scale study that I did with my father-in-law showed that 23 
percent of 15-passenger vans surveyed have tires that are 10 or 
more years old.
    I didn't know any of that before July 17th, 2007, but I 
have dedicated the last year to informing as many people as I 
can. In January, my family founded the American Center for Van 
and Tire Safety to warn the public about these significant 
dangers.
    Perhaps the biggest lesson I have learned is that 15-
passenger van rollover crashes are the most extreme and 
horrifying example of what is missing in our current rollover 
occupant protection regulations and that tire age is something 
most people, including tire service professionals, are not 
aware of.
    In any crash, it isn't just one thing that saves the driver 
or the passenger from injury or death. It isn't one thing that 
keeps the crash from happening in the first place. It is a lot 
of elements working together. As I sit before you today, on 
July 16th, 2008, knowing everything I know, there are still 
many pieces missing in our Federal safety regulation to prevent 
and reduce the harm from rollover crashes.
    We have taken a few steps forward. Many Federal safety 
standards for passenger vehicles and light trucks have been 
expanded to include new 15-passenger vans. The SAFETEA-LU bill 
of 2005 requires NHTSA to issue a report on tire aging. The 
agency has begun to upgrade the roof crush standard and, last 
month, it issued a consumer advisory that included some 
information about aged tires.
    But the roof crush standard has stalled. The final tire 
aging report with rulemaking recommendations remains in the 
agency's hands. It is still near impossible for the average 
person, or even a service technician, to read a tire date code 
or learn about the consumer advisory.
    Our goal now is to push for improvements to 15-passenger 
vans, to eliminate aged tires from our fleet, and keep these 
issues in front of the public.
    But my family and our organization cannot do it alone. So I 
would like to close my testimony with a little bit of 
automotive history and a challenge.
    Forty-three years ago, almost to this day, there was 
another congressional hearing on the effectiveness of NHTSA's 
programs. The hearings continued over a week in mid-July. The 
witnesses included executives from all major American auto 
manufacturers.
    The centerpiece of Ford Motor Company's testimony was a 
short movie demonstrating the crashworthiness of a 1961 Comet.
    Picture, if you will, a grainy black and white film of a 
white sedan heading for a ramp. The ramp tips and the passenger 
side wheels and the Comet rolls over twice. The cameras inside 
of the car show the seat-belted dummies in the front bounced by 
the crash force, but otherwise unharmed. When the Comet comes 
to rest upright, the roof is intact and dummies are still in 
their seats.
    I am not sure how many automakers today would show such a 
thing to Congress. I do, though, know in 1965 manufacturers 
were on the path to building vehicles that offered significant 
occupant protection in rollovers. But in the absence of 
regulatory standards, we have strayed far from the path. We 
have spent decades building vehicles that are more prone to 
rollovers instead of less, with weaker roofs instead of 
stronger, and restraint systems that do not work in the moment 
when our lives depend on it.
    Lexie died before she grew up and made her own way in the 
world, but that does not mean she cannot leave a lasting 
legacy. With your help, it can be done and that will spare 
others the pain of knowing that a loved one died in a crash 
that they could have survived.
    Despite the improvements to 15-passenger van design 
required by SAFETEA-LU, as of July 2006, there were still more 
than half a million 15-passenger vans on our roads. These vans 
are not equipped with the latest safety features. In fact, they 
are based on 30-year-old technology and they are used by 
schools, daycare centers, churches, and our elderly, our 
athletes and our choirs. It is not enough to launch another 
education and awareness campaign. These messages work their way 
slowly to the public's consciousness. Consider that NHTSA has 
already issued three consumer advisories warning the public 
about the dangers of 15-passenger vans, when Alexis died in 
one.
    My challenge to the industry is this: help send these older 
vans and very dangerous vehicles to the scrap yard. Fifteen-
passenger vans are the only vehicles in our fleet that cannot 
be used safely as intended. The irony would be merely absurd if 
the consequences of it weren't so tragic. Automakers should 
work to offer financial incentives to the community groups that 
need their vans, but lack the resources to replace them with 
safer transportation.
    As for the regulators, NHTSA and their overseers, the 
honorable members of Congress, we ask you to conduct a national 
survey on aged tires in 15-passenger vans and warn consumers 
about this fatal combination. Ultimately, we would like to see 
expiration dates clearly printed on the outside sidewalls of 
every passenger vehicle or the use of current technologies like 
radio frequency identification to ensure a quick and easy read 
of a tire's age.
    I urge you to get to work on a standard for a dynamic 
rollover occupant protection test. NHTSA is absolutely right to 
approach each rollover-related rulemaking as a part of a 
system. But the system is still missing a critical element: How 
will the driver and the passenger actually fare in a rollover? 
We need a standard that requires instrumented dummies to 
measure what happens to people in rollovers, not just metal and 
glass.
    What good is it to test one side of the roof with a metal 
plate if the front seat passenger's head is going to be crushed 
in a crash along with the B-pillar? We need to know that the 
seat belts and whatever anchors them in a vehicle are going to 
withstand with impacts of a rollover, so that the 10-year-old 
girl in that seat belt is going to withstand it too. If we 
don't seek the answers to these question, then what exactly are 
we accomplishing?
    Manufacturers have resisted a dynamic rollover testing 
standard for decades. It can't be done, they say. And NHTSA has 
retreated. But if Ford can showcase its rollover testing to 
Congress in 1965, if GM can parade the $10 million rollover 
testing center two years ago for the television cameras, then 
it can be done. And instead of fighting a standard, it should 
be supporting it and offering the agency the benefits of their 
years of such testing.
    I know that protecting people in rollover crashes is a 
complex challenge, but Americans are actually good at solving 
complex problems. Sometimes I think we forget that. We are up 
to the challenge. It is time to do the right thing for Alexis, 
for all of us.
    Thank you for the opportunity to speak to you today.
    Mrs. Napolitano. Mr. James, thank you for your very 
touching testimony. We totally agree that there needs to be 
some additional focus on tire safety, and maybe that is one of 
the things the NHTSA could add to their checkpoints and check 
tire wear, especially on vans carrying youngsters, and maybe 
address it in that way. Thank you, sir.
    We move on to Ms. Laura Dean Mooney, President of Mothers 
Against Drunk Driving. Welcome.
    Ms. Mooney. Madam Chair, Ranking Member Duncan, and members 
of the Subcommittee, thank you for the opportunity to testify 
on the important topic of improving highway safety.
    Madam Chairman, I am pleased to report that progress has 
been made to reduce drunk driving, with a 44 percent reduction 
in alcohol-related fatalities since 1980 when MADD was founded. 
This reduction would not be possible without the hard work of 
law enforcement, prosecutors, NHTSA, State highway safety 
offices, and others. MADD thanks them as well as you and the 
members of this Committee for your leadership on this issue. 
This truly has been a team effort.
    For more than 16 years, I have worked as a volunteer to try 
and advance MADD's mission at the local, State, and national 
levels.
    I became involved with MADD after my husband, Mike Dean, 
shown in this picture, aged 32, was killed in Texas by a drunk 
driver, leaving me to raise our eight-month-old daughter alone. 
Mike was killed on November 21st, 1991, when a drunk driver, 
going the wrong way on a Texas highway, met Mike's car head-on, 
killing him instantly.
    The offender, who also died at the crash scene, had a BAC 
of .34 and was driving with an almost empty bottle of Jim Beam 
whiskey in the vehicle.
    The crash happened exactly one week before Thanksgiving.
    Madam Chairman, as you know, this must not be tolerated. In 
2006, there were 13,470 fatalities involving a drunk driver or 
a motorcycle operator with at least a .08 BAC, and nearly half 
a million injuries due to alcohol-related traffic crashes. This 
costs the United States an estimated $114.3 billion annually. 
The sad news is that while your efforts, along with those of 
MADD and other groups, have made drunk driving socially 
unacceptable, it is still tolerated.
    Statistics collected by NHTSA should frighten all of us. 
Californians share the road with 310,971 drivers with three or 
more DUI convictions, and 44,210 drivers with five or more DUI 
convictions. Arkansas is home to the single worst drunk driving 
offender in the Nation, with one individual accounting for 40 
DUIs.
    In response to the ongoing tragedy of drunk driving, MADD 
launched the Campaign to Eliminate Drunk Driving on November 
20th, 2006 The Campaign consists of four parts: support for 
high-visibility intensive law enforcement; full implementation 
of current alcohol ignition interlock technologies for all 
first-time convicted drunk drivers; exploration of advanced 
vehicle technologies through the establishment of a Cooperative 
Research Agreement between NHTSA and leading automakers that is 
assessing the feasibility of a range of in-vehicle technologies 
intended to prevent drunk driving; mobilization of grassroots 
support led by MADD and its more than 400 affiliates and our 
partners to make the elimination of drunk driving a reality.
    Mr. Chairman, the time for widespread adoption by States of 
ignition interlock laws for all convicted drunk drivers has 
come. Anyone who violates the public trust 27 years after 
everyone knows the consequences has earned the right for an 
alcohol ignition interlock device to be installed on their car. 
Multiple studies on interlocks for both first-time and repeat 
offenders show a decrease in repeat offences up to 65 percent 
while the ignition interlock is on the car.
    The more exciting results, however, are that alcohol-
involved crashes are down 30 percent, injuries are down 32 
percent, and fatalities are down 22 percent as a result of New 
Mexico's first offender program. Currently, only eight States 
have ignition interlocks for all first-time convicted drunk 
drivers. MADD uses the phrase ``first time convicted'' because 
the most conservative studies say that impaired drivers have 
actually driven drunk an average of 87 times before they are 
ever caught.
    MADD also respectfully asks Congress to consider supporting 
increased funding for the 402 program and law enforcement in 
the next traffic safety reauthorization bill. We also believe 
increased Federal funding is needed to help with the 
Cooperative Research Agreement between the automotive industry 
and the Federal Government to support those new technologies 
that may eventually prevent a vehicle from being started by a 
drunk driver. MADD does not support any mandates of this new 
technology, and we believe it is best pursued on a voluntary, 
market-driven basis over the next decade.
    Mr. Chairman, in closing, we wish to bring another 
important issue to the Committee's attention. There are some 
who continue to advocate lowering the drinking age back to 18. 
Data is unequivocal that the earlier youth drink, the more 
likely they are to become alcohol-dependent later in life and 
then drive drunk. Because of the 21 minimum drinking age, 
25,000 families somewhere will never know the tragedy of the 
call that comes at 2:00 a.m. or, in my case, 7:15 p.m. that 
says their husband, son, daughter, or loved one is not coming 
home. I know this tragedy firsthand and I will work with MADD 
to continue the fight so that others will not experience my 
tragedy.
    Mr. Chairman, again, I thank you and would like to thank 
the members of the Committee for the opportunity to testify. 
MADD looks forward to working with you and this Committee as 
you look to improve highway safety on our Nation's roadways. 
Thank you.
    Mr. DeFazio. [Presiding] Ms. Jill Ingrassia, Managing 
Director, Government Relations & Traffic Safety Advocacy, of 
the AAA, Washington, D.C. Ms. Ingrassia.
    Ms. Ingrassia. Chairman DeFazio and members of the 
Subcommittee, thank you for inviting me here today to share 
AAA's perspective on roadway safety.
    As you may know, AAA is a federation of independent motor 
clubs in the United States and Canada, serving over 51 million 
members. Our members are prime users of the Nation's 
transportation system; they are commuters, leisure travelers, 
pedestrians, and users of mass transit. So transportation plays 
a vital role in their lives.
    In the time I have today, I would like to reinforce three 
messages from the more detailed testimony that I submitted for 
the record. First is the importance of developing a new vision 
and purpose for the overall transportation program and engaging 
the public in the lead-up to this next bill; second is the 
challenge of changing behavior and creating a traffic safety 
culture; and, finally, I will mention a couple of key 
recommendations for improvement.
    As you prepare for the upcoming reauthorization of SAFETEA-
LU, in addition to the challenges of actually writing a new 
bill, an added challenge will be getting the public's buy-in 
regarding the importance of transportation and what needs to be 
done. We have found in recent surveys that the public knows we 
need transportation improvements, but they don't believe 
current resources are being invested effectively and they are 
skeptical about paying more.
    If we fail to understand the amount of mistrust the public 
has in our ability to deliver recognizable transportation 
improvements and be good stewards of the motorists' dollar, we 
will fail in reducing fatalities, fail in cutting commute 
times, and fail to grow our economy in ways that will keep us 
globally competitive. We simply won't have the public support 
and the resulting political will we need to get the job done.
    Turning to safety, behavior change is arguably the greatest 
challenge we face in reducing the over 42,000 deaths and over 2 
million injuries resulting from motor vehicle crashes each 
year. These figures should ring alarm bells nationwide for an 
urgent call to action. Yet, our society seems to have come to 
accept this sort of death toll with motor vehicle crashes. This 
has to change.
    An important step is changing the way we view traffic 
crashes. They should be recognized as a public health threat 
and treated as such. That means rethinking how we communicate 
traffic safety, as well as increasing our focus on 
collaboration between government agencies, transportation and 
health professionals, communicators, law enforcement, and 
criminal justice professionals to name a few.
    A common theme in all of the traffic safety challenges 
outlined in my testimony is the need to communicate differently 
and develop new ways to affect behavior change. On many issues 
we have made progress on the traditional four Es: engineering, 
education, enforcement, and emergency services. We believe it 
is time to add four Cs: communication, coordination, 
collaboration, and culture. I mention culture because it seems 
the public is not getting the message about the impact of motor 
vehicle crashes. They are not changing behavior or demanding 
urgent action from elected officials.
    To that end, the AAA Foundation for Traffic Safety has 
initiated a long-term research project to assess and hopefully, 
eventually, transform the traffic safety culture in this 
Country. To give you a sense of the challenge, our recent AAA 
Foundation survey of public attitudes, behaviors, and beliefs 
on traffic safety found that, to a large degree, Americans 
practice a ``do as I say, not as I do'' approach. They 
certainly agree that engaging in distracted behavior while 
driving is dangerous; yet, they admit to doing it, and they 
firmly believe the driver of the other vehicle is the real 
source of the problem.
    Speeding, aggressive, impaired, and distracted driving, 
seat belt use and pedestrian/cyclist safety are just some of 
the issues that can benefit from an improved traffic safety 
culture. My written testimony includes perspectives on some of 
these issues, along with a focus on teen drivers, child 
passenger safety, and senior mobility.
    I would like to finish by just briefly highlighting a 
couple of our recommendations for your consideration as you 
evaluate existing programs and look for new opportunities to 
improve transportation safety.
    The first is data. We need to increase focus on results and 
metrics in order to properly evaluate current safety programs 
so that we invest in projects and programs that are truly 
having an impact. Data systems must be improved and money 
should be provided for necessary upgrades. Developing a common 
definition for serious injuries should also be a priority. 
Collecting data on deaths and serious injuries would provide a 
more robust metric and afford greater statistical validity of 
any analyses done.
    The second is accountability. In order to move to a 
performance-driven outcome-based system, new performance 
metrics are needed. As you have already heard, NHTSA and GHSA 
are working to develop comprehensive performance metrics for 
safety programs, and we support this effort. Uniform 
performance standards will reveal to each State what its own 
data collection needs are and will help each State evaluate its 
current safety programs.
    With respect to strategic highway safety plans, AAA 
encourages Congress to strengthen the requirement for States to 
develop collaborative strategic highway safety plans that are 
based on data. There should be oversight and evaluation to 
ensure the programs are actually accomplishing the defined 
goals, as well as requirements to update them. It is important 
that NHTSA and State highway safety offices be actively engaged 
in the development and evaluation of these plans.
    In conclusion, AAA recognizes that the challenges before 
you are not easy. Making significant strides in safety will 
likely involve more than incremental improvements and providing 
a bit more money to carry on business as usual. We look forward 
to working with you on the important task of improving 
transportation safety in the next reauthorization bill.
    Thank you for the opportunity to testify today, and I look 
forward to answering any questions you may have.
    Mr. DeFazio. Thank you.
    Ms. Jacqueline S. Gillan, Vice President, Advocates for 
Highway and Auto Safety. Ms. Gillan.
    Ms. Gillan. Good morning, Mr. Chairman. My name is 
Jacqueline Gillan and I am Vice President of Advocates for 
Highway and Auto Safety, and I appreciate the opportunity to 
testify this morning on such an important topic.
    During the SAFETEA-LU authorization time frame, it is 
expected that more than 200,000 people will die on our highways 
and nearly 13 million more will be injured. This will occur 
despite the largest surface transportation investment in our 
Nation's history.
    The number of highway deaths and injuries have essentially 
flat-lined. In recent years, the National Highway Traffic 
Safety Administration has been unable to meet a number of its 
announced safety performance goals for reducing deaths and 
injuries. Instead of changing their plans and programs to meet 
the challenge, the agency simply moves the goalpost.
    As this Subcommittee begins deliberations on the next 
reauthorization bill, let me briefly recommend some of the key 
areas where real safety gains can be achieved.
    First, there is an urgent need for a primary enforcement 
seat belt law in every State. Today, only 26 States and D.C. 
have this law. Primary enforcement seat belt laws save lives 
and result in higher usage rates. SAFETEA-LU provided more than 
$500 million in incentive grant money to encourage States to 
pass primary enforcement seat belt laws. In 2006, three States 
acted. In 2007, only Maine passed a law. And in 2008, we do not 
expect a single State to adopt a primary enforcement seat belt 
law. At this glacial pace, it could be 2032 or later before 
every State has this essential law.
    In the area of impaired driving, we are not making 
sufficient progress. Many States still don't have some of the 
most fundamental and basic impaired driving laws. Additionally, 
we need to expand the use of technology to prevent impaired 
driving. Advocates strongly supports and is working with MADD 
to promote adoption of mandatory interlock laws for first-time 
offenders in every State.
    One of the major factors contributing to overall highway 
fatalities is the dramatic increase in motorcycle deaths in the 
last 10 years. Since 1997, motorcycle deaths have more than 
doubled. Helmet use is the most effective measure to protect 
motorcyclists in a crash from death and disabling brain injury. 
However, while motorcycle deaths are climbing, lifesaving all-
rider helmet laws are under attack in State legislatures. In 
fact, more State legislatures considered repealing their laws 
than enacting them.
    The increase in teen drivers on our roads is also a safety 
problem with a sensible solution. In 2006, about 8,000 deaths 
involved young drivers. Graduated driver licensing or GDL 
programs introduce teens to driving by phasing in driving 
privileges over time and in less risky situations. While many 
States have a few of the essential components of an optimal GDL 
law, only Delaware has all five recommended by Advocates. As a 
result, there is a patchwork quilt of teen driving laws across 
the Nation similar to the blood borders that existed in the 
1970s and 1980s when States had different minimum drinking ages 
for alcohol.
    Congress solved that problem with enactment of the 21 
drinking age sponsored by the late Chairman of this Committee, 
Representative Jim Howard. This law gave States three years to 
adopt a uniform drinking law or be penalized Federal aid 
highway funds. As a result, every State complied. No State lost 
a single dollar of highway funds, and over 25,000 lives have 
been saved; a remarkable achievement. It is now time for 
Congress to step in to protect every teen in every State 
through the uniform adoption of optimal GDL laws.
    There is also a pressing need to address the rapidly 
increasing population of older drivers. NHTSA estimates that by 
the year 2030 there will be 71 million drivers over 65 years 
old. Not enough attention is being given to adopting 
countermeasures in our highway and vehicle safety designs for 
older drivers in anticipation of this.
    Now let me briefly turn to the issue of speed. In 2006, 
speed was a factor in about a third of all traffic fatalities. 
Congress may have repealed the national maximum speed limit in 
1995, but it did not repeal the law of physics. It is important 
to note a 1984 study where the National Academy of Sciences 
documented that the speed limit lowered both the lives lost and 
also conserved fuel. Conditions may once again be ripe for 
Congress to consider a new version of the national speed limit 
law. One bill has already been introduced in the House and 
Advocates supports the reconsideration of a national speed 
limit as a policy option in order to save lives and protect our 
Nation.
    In conclusion, many of the safety priorities outlined in 
Advocates' testimony today can be realized by expending minimal 
Federal dollars while achieving maximum gains in saving lives 
and preventing deadly injuries. There are really no acceptable 
excuses for delaying any longer the adoption of proven safety 
measures that will significantly reduce our Nation's death and 
injury toll, and we look forward to working with you during the 
consideration of reauthorization.
    Again, Mr. Chairman and members of the Subcommittee, thank 
you for the opportunity to testify.
    Mr. DeFazio. Thank you.
    The Honorable Bob Letourneau, State Senator, New Hampshire. 
Mr. Letourneau.
    Mr. Letourneau. Good afternoon, Chairman DeFazio and Mr. 
Boozman, members of the Highways and Transit Subcommittee. 
Thank you for inviting me here today to testify on behalf of 
American Motorcyclists.
    For the record, my name is Senator Bob Letourneau, and I am 
here representing Motorcycle Riders Foundation, which is a 
coalition of States riders motorcycle rights organization and 
individual members representing about 275,000 motorcyclists. I 
also serve as the Chairman of the New Hampshire Senate 
Transportation Committee and a am a member of the State 
Motorcycle Advisory Committee. In addition to that, I am a 
member of the Governors Motorcycle Safety Task Force of the New 
Hampshire Highway Safety Agency, and I have been a motorcycle 
rider for 41 years.
    I want to thank Chairman DeFazio for his wisdom to hold 
this motorcycle safety hearing on National Ride to Work Day.
    With reference to the 2010 funds, I appreciate the 
opportunity to provide your Subcommittee with some thoughts 
that the MRF has on highway safety programs administered by 
NHTSA. We hope that the next reauthorization not only keeps 
Federal section 2010 funds as a priority and expand this 
program exponentially.
    Consider this: Under the current SAFETEA-LU law, the 
Federal Government spends about $1.00 per motorcyclist per 
year. Then ask yourself, do you think that is enough? I want to 
give you some personal perspective as my experience as a member 
of the Motorcycle Safety Task Force of New Hampshire, whose 
responsibility it is to use these funds, is very positive.
    We have been able to purchase new training bikes for our 
fleet, opening up new training possibilities for riders. We 
were able to purchase 220 new helmets to replace the current 
helmets, most of which were 18 years old. Additionally, we were 
able to provide the MSF Intersections training video to all our 
driver training schools, providing valuable education to our 
new drivers about the issues that motorcyclists face on the 
road daily. This was possible because of 2010 grants; your tax 
dollars truly at work.
    In reference to accident prevention, past legislation that 
this Committee has crafted included language that specifically 
directs NHTSA to focus on accident prevention over occupation 
protection when addressing motorcycle safety. Accident 
prevention saves societal costs, reduces injuries, and reduces 
property damage. We ask that you continue to promote outcome-
based accident prevention solutions.
    Again, from my personal perspective, on July 5th, 2008, 
putting my money where my mouth is, I took and passed the 
advanced Skilled Rider Course because I know it saves lives, 
and, yes, I did learn that I have rider skills that I was not 
using properly. However, more importantly, when people ask me 
if I have taken the course, I can answer yes, and it works.
    HOV lanes. When considering future highway design, it is 
important to include motorcyclists on HOV lane access, as this 
Committee has done in the past. For that, 6 million American 
motorcyclists thank Congress.
    Motorcycle Advisory Council. Also included in SAFETEA-LU 
was language that created an advisory council to provide the 
wisdom to the Secretary of Transportation on motorcycles and 
the design of the highway infrastructure. I am pleased to tell 
you the initial two-year charter passed by Congress has been so 
successful that the Secretary recently decided to extend the 
Council for another two years.
    Another personal note. In light of increased motorcycle 
fatal accidents during the 2005 riding season, Representative 
Packard, who was the Chair at the time of the House 
Transportation Committee, and myself, as Chairman of the Senate 
Transportation Committee, requested that the Governors Highway 
Safety agency form a task force to come up with solutions to 
this increasing problem. You will see from the document that I 
have provided the Committee that in light of augmented 
motorcycle registrations, we were able to find ways to decrease 
the fatality problem through awareness, improved rider 
education programs, and new legislation, which both 
Representative Packard and myself introduced and passed.
    Green vehicles. We ask Congress to promote motorcycling as 
a means of reducing energy consumption and reducing traffic 
congestion.
    International efforts. Last month, the MRF participated in 
a meeting held by the Organization for Economic Cooperation and 
Development and its 30 member countries in conjunction with the 
International Transit Forum and Joint Transportation Research 
Centre in Lillehammer, Norway to develop a global list of the 
top 20 motorcycle safety priorities. You have our list of that, 
and priorities one, three, and four all stress proper riding 
training. Priorities six and seven emphasize awareness 
programs. Two areas that the American motorcycle rights 
community has been promoting for decades.
    And last but not least, rising fatalities. According to the 
June 2008 survey of State motorcycle safety programs by the 
Governors Highway Safety Association, motorcycle registrations 
have more than doubled since 1997 and new motorcycle sales have 
quadrupled since then. Surely, when the population is 
increased, one must expect the crash numbers to climb as well. 
It is simple statistics.
    The same report stated that this explosion of motorcycle 
sales from 356,000 in 1997 to 1.1 million today is crippling 
the rider education programs across the Country. Twenty-nine 
States and D.C. have capacity problems and often have wait 
times for training for more than 12 weeks. This is another 
reason why Congress needs to invest more money in motorcycle 
rider education through Section 2010 grants.
    One last personal observation, in New Hampshire, during our 
first 15 years of our motorcycle education program, we trained 
over 23,000 riders. Only one of those 23,000 riders was 
involved in a fatality. Education is the key to successfully 
reducing motorcycle fatalities, and our experience is proof 
positive.
    On behalf of the MRF and the American motorcyclists, I 
thank you for this opportunity to present our concerns and 
views to you in considering safety issues in the development of 
the National Transportation System, and I welcome any questions 
from the Committee.
    Mr. DeFazio. Thank you.
    I will turn first to Mr. Boozman who wants to recognize a 
couple of witnesses and has a quick question. We are going to 
try and move quickly through questions because we won't have 
time to come back.
    Go ahead.
    Mr. Boozman. In the interest of time, Mr. Chairman, we 
would like to submit some questions potentially, but I want to 
thank Mr. James and Ms. Mooney for coming and giving your 
testimony. It is very difficult, and yet it really is very 
helpful to hear personal stories.
    My wife was in an accident a month or so ago, and my 
daughter. It was a very complicated intersection. She broke 
several ribs, had a collapsed lung and stuff, but it was really 
the Lord taking care of her in the sense that she could have 
been injured much, much worse.
    So this is something that we are all very, very aware of, 
and we really do appreciate your advocacy, and it really does 
make a big difference. Thank you to all the panelists. We 
appreciate your being here.
    Mr. DeFazio. Thank you and I likewise met with Mr. James 
last fall in my office and Ms. Mooney. Sometimes maybe in our 
lives the only we can make sense out of horrible tragedies is 
to try and prevent that from happening to other people, and we 
appreciate what you are doing there.
    A couple of quick questions, Mr. James. How would you 
envision a national system for endorsement on driving 15-
passenger vans? Have you kind of thought how we would establish 
the standards?
    I mean, generally, we have left that issue to the States to 
some extent, although are some Federal standards about 
commercial truck drivers, for instance.
    Mr. James. Very similar, like motorcycles, there, you have 
to have an endorsement to drive a motorcycle. If we do this, it 
will be the awareness that there is 500,000 of these vans 
without even the latest technology on the road, that everybody 
agrees that have rollover, very high rollover risk.
    We have been using the motorcycle endorsement as our 
example that we would like to see.
    Mr. DeFazio. So, essentially, we would just set a national 
objective, perhaps provide some small amount of funds in the 
next authorization to the States and say, you have to develop a 
system to certify the people. We wouldn't try and have it as a 
Federal standard or license but just leave that up to the 
States to determine what additional training or testing would 
be necessary.
    Mr. James. Correct.
    Mr. DeFazio. Okay. All right. Thank you.
    Ms. Mooney, I have a question. I don't understand about the 
$60 to $80 a month to monitor the interlock. Why does it cost 
that?
    Ms. Mooney. Well, the offender has to pay all the costs, 
the initial cost to acquire the interlock device, about $150 to 
$200. Sixty dollars a month is to maintain the device. They 
actually have to drive back to the facility where it was 
installed and have it calibrated and dump the data that it has 
collected. So that is where the cost comes in.
    Mr. DeFazio. Isn't technology moving? I mean where we have 
technology, we can monitor prisoners remotely with ankle 
bracelets. It just seems to me like a high recurring cost. I 
mean is there a technology breakthrough coming where we can 
remotely monitor these devices and not have to bring them in?
    Do they have problems with failure or why do they have to 
be recalibrated so frequently, monthly, it seems?
    Ms. Mooney. Well, I guess we would have to have an ignition 
interlock provider that knows the technology a little more 
exactly than I do.
    But our feeling is $60 to $80 is not very much really, a 
month, when you think about that is the cost of one drink a 
day.
    Mr. DeFazio. No. I understand that, but it just kind of 
stuck out to me. I am thinking put the devices in and make it 
so they can't circumvent them, but I was just wondering about 
the recurring cost with it. In many cases, it is probably going 
to be borne by taxpayers since a lot of the people may not have 
the wherewithal to pay that.
    Ms. Mooney. I was just reminded it also prevents the 
tampering too if they go in and see that it is actually still 
installed in the car, and they are able to check it for various 
things. That is my understanding, limited understanding of 
that.
    I think an interlock provider would be able. I would be 
happy to get that information and get that to you.
    Mr. DeFazio. Yes. No. I mean I think the devices are an 
excellent way to prevent reoccurrence.
    Now why so few States have adopted it for first time 
offenders? Why? What is the resistance you are sensing or 
hearing?
    Ms. Mooney. Perhaps it is mostly education, educating State 
legislators about exactly what an interlock device is and what 
the purpose of it is. Even law enforcement officers, judges 
don't know very much about them from my personal experience in 
visiting with those types of folks.
    Once they see it, they usually get it. They usually 
understand this is something that is really effective. It is 
going to allow the offender to keep going to their job and 
drive their kids to school. They simply can't drive drunk.
    Primarily education and having them understand what it 
does.
    Mr. DeFazio. Okay. Anybody else want to comment on 
interlocks?
    All right. I will see if other members have questions 
because we don't have much time. I don't know who was here 
first.
    Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman, and I really do 
appreciate the witnesses coming and giving their testimony.
    I was just going to ask one question, maybe make a comment 
to the Senator, Mr. Letourneau.
    I know that in South Carolina, we just passed a bill where 
when you come to a traffic light on a motorcycle and it doesn't 
trip the mechanism. So the State Legislature actually now 
allowed the motorcycle to proceed across the red light if there 
is nobody coming. I just wondered if that has been an 
initiative for you all.
    Mr. Letourneau. I did see that legislation, and there is an 
issue with some traffic lights. I know as a rider I have run 
into that problem myself. I am just a little leery of going 
through any red lights. On a motorcycle, you don't have much 
protection.
    Mr. Brown. Well, you certainly drive at your own risk, and 
yet you can tell whether the traffic is coming or going or not. 
I know that we had a lot of folks that were just waiting at the 
traffic light for a car to come up, so they could trigger it to 
get access to the change of the light.
    But I didn't know, since you rode motorcycles, whether that 
would be of any interest to you or not.
    Anyway, thank you, Mr. Chairman. I know we have votes on 
the floor, and I will yield back.
    Mr. Letourneau. Thank you.
    Mr. DeFazio. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I have some written questions I am going to have you 
answer, hopefully. But, Mr. James and Ms. Dean Mooney, thank 
you for especially your testimony.
    My grandfather was killed by a drunk driver when he was 
working with the Texas Highway Department, laying asphalt on 
now Interstate 35. Then my eight year old, when Kim was eight, 
was hit by a drunk driver riding her bicycle home from school 
and never rode a bicycle again, even to this day.
    Specifically, Ms. Dean Mooney, I want to thank you and MADD 
for what you have done. There are thousands of people today who 
are alive because of MADD, thousands. You have done a wonderful 
job in the last 20 years. We cannot forget that.
    I want to question you about interlock devices. I used them 
as a judge. It is the law in States, but judges don't follow 
the law. They don't enforce the law and require interlock 
devices, and so I have two questions for you. You can submit an 
answer in writing.
    Do you think that if we required that first time offenders 
have an interlock device, of drinking and driving, and some 
stipend to States that enforced that, if that would help?
    Second, what do you think about repeat offenders, the judge 
ordering the confiscation of the license and registration of 
the vehicle, the license plate and the registration of the 
vehicle for a period of time, if that would help in solving 
this problem or not?
    So those are my questions. I would like some written 
answers.
    Mr. Chairman, I will yield back the balance of my time.
    Mr. DeFazio. Thank you. I would also be interested in the 
answers to those questions because I think particularly on the 
first one, maybe the Feds need to provide a little more 
direction on the first time offenders particularly States. I 
think you suggested 0.08.
    Ms. Mooney. Thank you, Judge Poe. We will make sure we get 
those to the Committee.
    Mr. DeFazio. Thank you.
    Mr. Chairman, there are some votes coming up, but if you 
have a couple of questions that would be great.
    Mr. Oberstar. Well, thank you.
    I thank this panel very much for your testimony. I had to 
be out of the room while you were delivering, but I did read 
through your submissions prior to the hearing.
    I want to join with Mr. Poe in complimenting MADD for their 
service to the public. He put it very well. People are alive 
today because of the work of MADD, and we need to pursue those 
goals, those initiatives that MADD and all the other members of 
this panel have advocated and raise our standard and save more 
lives.
    I said it, Mr. Chairman, before the previous panel, while 
you were at the aviation issue, that the European community has 
reduced fatalities from 53,000 a year to 43,000 in 5 years. We 
ought to be able to do as well in the United States through a 
combination of initiatives that the European community has 
undertaken.
    Certainly with half of our fatalities associated with 
alcohol, we ought to attack behavior.
    We have done a good job, I believe, in this Country of 
changing the traveled way, removing tank traps such as those 
huge concrete posts for lights, highway lighting systems. You 
would drive into it, and the driver and passenger are killed. 
We now have breakaway light poles.
    The Jersey barriers, instead of running into a concrete 
wall or running through something and going into the opposite 
traveled way and killing more people, we have the Jersey 
barrier.
    We have the bridge piers that are angled away from the 
traveled road surface itself so that people aren't driving into 
those.
    The guard rails that are now angled into the ground, before 
that work was done, our Committee found that drivers crashed 
into the end of the guard rail which would slide over the hood 
of the car and decapitate driver and passenger.
    But we haven't done as well--we haven't done as well--on 
the behavioral side, on the passenger side, which is why I 
questioned the previous panel on national driver register. We 
need to get bad drivers off the highways. We need to keep 
people who are impaired, not handicapped but impaired by 
alcohol or drugs, off the traveled roadway.
    I know you addressed this previously, Ms. Ingrassia, Ms. 
Gillan. We had quite a debate in the previous transportation 
bill as well as in TEA-21 over whether incentives for States to 
comply with 0.08 or penalties for noncompliance were better. 
What is your experience?
    We wound up with incentives. You get a bonus to the State 
if they establish that and for seatbelt compliance.
    Ms. Gillan. Mr. Chairman, there is no question that 
sanctions work and that incentive grants without sanctions are 
not as effective.
    In my testimony, I talked about the primary seatbelt 
incentive grant program. Only three States passed a primary 
enforcement seatbelt law in 2006. Maine did it last year. There 
will be no State this year that will pass a primary enforcement 
safety belt bill.
    When we look at the 21 drinking age, when we had blood 
borders and the former Chairman Jim Howard passed that 
legislation, all States within 3 years had a 21 drinking age, 
no State lost a single dollar, and 25,000 lives have been 
saved.
    It worked on 0.08. It worked on zero tolerance BAC laws for 
youth, and that is the approach we should consider in the next 
bill when we look at the lack of some of the most fundamental 
safety laws in the States such as primary enforcement, 
motorcycle helmets, teen driving laws.
    Advocates is not ashamed to say that the research shows 
that sanctions work and that that is an approach this Committee 
has to look at if we ever want to make a significant drop in 
the number of deaths and injuries on our highways.
    Mr. Oberstar. That was my view in the previous Congress. I 
see time has expired on the vote on the House floor.
    I have to run. I know other members have their questions.
    Mr. James, I know you have had a very personal, searing 
experience, and I sympathize with you, offer my heartfelt 
prayers and solidarity with you in your experience.
    I am so appreciative of all the work that MADD has done, 
that the Advocates have done.
    You heard our hearing previously on big trucks and small 
cars. We are going to do a much bigger job, a much better job, 
a much more intensive focus on highway safety in the next 
transportation bill. I assure you that.
    Thank you very much for your participation.
    Mr. DeFazio. The Committee stands adjourned.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3655.010
    
    [GRAPHIC] [TIFF OMITTED] T3655.011
    
    [GRAPHIC] [TIFF OMITTED] T3655.012
    
    [GRAPHIC] [TIFF OMITTED] T3655.013
    
    [GRAPHIC] [TIFF OMITTED] T3655.014
    
    [GRAPHIC] [TIFF OMITTED] T3655.015
    
    [GRAPHIC] [TIFF OMITTED] T3655.016
    
    [GRAPHIC] [TIFF OMITTED] T3655.017
    
    [GRAPHIC] [TIFF OMITTED] T3655.018
    
    [GRAPHIC] [TIFF OMITTED] T3655.019
    
    [GRAPHIC] [TIFF OMITTED] T3655.020
    
    [GRAPHIC] [TIFF OMITTED] T3655.021
    
    [GRAPHIC] [TIFF OMITTED] T3655.022
    
    [GRAPHIC] [TIFF OMITTED] T3655.023
    
    [GRAPHIC] [TIFF OMITTED] T3655.024
    
    [GRAPHIC] [TIFF OMITTED] T3655.025
    
    [GRAPHIC] [TIFF OMITTED] T3655.026
    
    [GRAPHIC] [TIFF OMITTED] T3655.027
    
    [GRAPHIC] [TIFF OMITTED] T3655.028
    
    [GRAPHIC] [TIFF OMITTED] T3655.029
    
    [GRAPHIC] [TIFF OMITTED] T3655.030
    
    [GRAPHIC] [TIFF OMITTED] T3655.031
    
    [GRAPHIC] [TIFF OMITTED] T3655.032
    
    [GRAPHIC] [TIFF OMITTED] T3655.033
    
    [GRAPHIC] [TIFF OMITTED] T3655.034
    
    [GRAPHIC] [TIFF OMITTED] T3655.035
    
    [GRAPHIC] [TIFF OMITTED] T3655.036
    
    [GRAPHIC] [TIFF OMITTED] T3655.037
    
    [GRAPHIC] [TIFF OMITTED] T3655.038
    
    [GRAPHIC] [TIFF OMITTED] T3655.039
    
    [GRAPHIC] [TIFF OMITTED] T3655.040
    
    [GRAPHIC] [TIFF OMITTED] T3655.041
    
    [GRAPHIC] [TIFF OMITTED] T3655.042
    
    [GRAPHIC] [TIFF OMITTED] T3655.043
    
    [GRAPHIC] [TIFF OMITTED] T3655.044
    
    [GRAPHIC] [TIFF OMITTED] T3655.045
    
    [GRAPHIC] [TIFF OMITTED] T3655.046
    
    [GRAPHIC] [TIFF OMITTED] T3655.047
    
    [GRAPHIC] [TIFF OMITTED] T3655.048
    
    [GRAPHIC] [TIFF OMITTED] T3655.049
    
    [GRAPHIC] [TIFF OMITTED] T3655.050
    
    [GRAPHIC] [TIFF OMITTED] T3655.051
    
    [GRAPHIC] [TIFF OMITTED] T3655.052
    
    [GRAPHIC] [TIFF OMITTED] T3655.053
    
    [GRAPHIC] [TIFF OMITTED] T3655.054
    
    [GRAPHIC] [TIFF OMITTED] T3655.055
    
    [GRAPHIC] [TIFF OMITTED] T3655.056
    
    [GRAPHIC] [TIFF OMITTED] T3655.057
    
    [GRAPHIC] [TIFF OMITTED] T3655.058
    
    [GRAPHIC] [TIFF OMITTED] T3655.059
    
    [GRAPHIC] [TIFF OMITTED] T3655.060
    
    [GRAPHIC] [TIFF OMITTED] T3655.061
    
    [GRAPHIC] [TIFF OMITTED] T3655.062
    
    [GRAPHIC] [TIFF OMITTED] T3655.063
    
    [GRAPHIC] [TIFF OMITTED] T3655.064
    
    [GRAPHIC] [TIFF OMITTED] T3655.065
    
    [GRAPHIC] [TIFF OMITTED] T3655.066
    
    [GRAPHIC] [TIFF OMITTED] T3655.067
    
    [GRAPHIC] [TIFF OMITTED] T3655.068
    
    [GRAPHIC] [TIFF OMITTED] T3655.069
    
    [GRAPHIC] [TIFF OMITTED] T3655.070
    
    [GRAPHIC] [TIFF OMITTED] T3655.071
    
    [GRAPHIC] [TIFF OMITTED] T3655.072
    
    [GRAPHIC] [TIFF OMITTED] T3655.073
    
    [GRAPHIC] [TIFF OMITTED] T3655.074
    
    [GRAPHIC] [TIFF OMITTED] T3655.075
    
    [GRAPHIC] [TIFF OMITTED] T3655.076
    
    [GRAPHIC] [TIFF OMITTED] T3655.077
    
    [GRAPHIC] [TIFF OMITTED] T3655.078
    
    [GRAPHIC] [TIFF OMITTED] T3655.079
    
    [GRAPHIC] [TIFF OMITTED] T3655.080
    
    [GRAPHIC] [TIFF OMITTED] T3655.081
    
    [GRAPHIC] [TIFF OMITTED] T3655.082
    
    [GRAPHIC] [TIFF OMITTED] T3655.083
    
    [GRAPHIC] [TIFF OMITTED] T3655.084
    
    [GRAPHIC] [TIFF OMITTED] T3655.085
    
    [GRAPHIC] [TIFF OMITTED] T3655.086
    
    [GRAPHIC] [TIFF OMITTED] T3655.087
    
    [GRAPHIC] [TIFF OMITTED] T3655.088
    
    [GRAPHIC] [TIFF OMITTED] T3655.089
    
    [GRAPHIC] [TIFF OMITTED] T3655.090
    
    [GRAPHIC] [TIFF OMITTED] T3655.091
    
    [GRAPHIC] [TIFF OMITTED] T3655.092
    
    [GRAPHIC] [TIFF OMITTED] T3655.093
    
    [GRAPHIC] [TIFF OMITTED] T3655.094
    
    [GRAPHIC] [TIFF OMITTED] T3655.095
    
    [GRAPHIC] [TIFF OMITTED] T3655.096
    
    [GRAPHIC] [TIFF OMITTED] T3655.097
    
    [GRAPHIC] [TIFF OMITTED] T3655.098
    
    [GRAPHIC] [TIFF OMITTED] T3655.099
    
    [GRAPHIC] [TIFF OMITTED] T3655.100
    
    [GRAPHIC] [TIFF OMITTED] T3655.101
    
    [GRAPHIC] [TIFF OMITTED] T3655.102
    
    [GRAPHIC] [TIFF OMITTED] T3655.103
    
    [GRAPHIC] [TIFF OMITTED] T3655.104
    
    [GRAPHIC] [TIFF OMITTED] T3655.105
    
    [GRAPHIC] [TIFF OMITTED] T3655.106
    
    [GRAPHIC] [TIFF OMITTED] T3655.107
    
    [GRAPHIC] [TIFF OMITTED] T3655.108
    
    [GRAPHIC] [TIFF OMITTED] T3655.109
    
    [GRAPHIC] [TIFF OMITTED] T3655.110
    
    [GRAPHIC] [TIFF OMITTED] T3655.111
    
    [GRAPHIC] [TIFF OMITTED] T3655.112
    
    [GRAPHIC] [TIFF OMITTED] T3655.113
    
    [GRAPHIC] [TIFF OMITTED] T3655.114
    
    [GRAPHIC] [TIFF OMITTED] T3655.115
    
    [GRAPHIC] [TIFF OMITTED] T3655.116
    
    [GRAPHIC] [TIFF OMITTED] T3655.117
    
    [GRAPHIC] [TIFF OMITTED] T3655.118
    
    [GRAPHIC] [TIFF OMITTED] T3655.119
    
    [GRAPHIC] [TIFF OMITTED] T3655.120
    
    [GRAPHIC] [TIFF OMITTED] T3655.121
    
    [GRAPHIC] [TIFF OMITTED] T3655.122
    
    [GRAPHIC] [TIFF OMITTED] T3655.123
    
    [GRAPHIC] [TIFF OMITTED] T3655.124
    
    [GRAPHIC] [TIFF OMITTED] T3655.125
    
    [GRAPHIC] [TIFF OMITTED] T3655.126
    
    [GRAPHIC] [TIFF OMITTED] T3655.127
    
    [GRAPHIC] [TIFF OMITTED] T3655.128
    
    [GRAPHIC] [TIFF OMITTED] T3655.129
    
    [GRAPHIC] [TIFF OMITTED] T3655.130
    
    [GRAPHIC] [TIFF OMITTED] T3655.131
    
    [GRAPHIC] [TIFF OMITTED] T3655.132
    
    [GRAPHIC] [TIFF OMITTED] T3655.133
    
    [GRAPHIC] [TIFF OMITTED] T3655.134
    
    [GRAPHIC] [TIFF OMITTED] T3655.135
    
    [GRAPHIC] [TIFF OMITTED] T3655.136
    
    [GRAPHIC] [TIFF OMITTED] T3655.137
    
    [GRAPHIC] [TIFF OMITTED] T3655.138
    
    [GRAPHIC] [TIFF OMITTED] T3655.139
    
    [GRAPHIC] [TIFF OMITTED] T3655.140
    
    [GRAPHIC] [TIFF OMITTED] T3655.141
    
    [GRAPHIC] [TIFF OMITTED] T3655.142
    
                                    

</pre></body></html>
